<html>
<title> - LEGISLATIVE HEARING ON DISCUSSION DRAFT, H.R., TO PREPARE THE NATIONAL PARK SERVICE FOR ITS CENTENNIAL IN 2016 AND FOR A SECOND CENTURY OF PROMOTING AND PROTECTING THE NATURAL, HISTORIC, AND CULTURAL RESOURCES OF OUR NATIONAL PARKS FOR THE ENJOYMENT OF PRESENT AND FUTURE GENERATIONS, AND FOR OTHER PURPOSES, ``NATIONAL PARK SERVICE CENTENNIAL ACT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                             DISCUSSION DRAFT, H.R. ____, 
                       ``NATIONAL PARK SERVICE CENTENNIAL ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON FEDERAL LANDS

                                OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, December 2, 2015

                               __________

                           Serial No. 114-24

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                              _____________
                              
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
97-736PDF                      WASHINGTON : 2016                         
         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a>  
                    
                    
                    
                    
                    
                    
                    COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
              NIKI TSONGAS, MA, Ranking Democratic Member

Don Young, AK                        Matt Cartwright, PA
Louie Gohmert, TX                    Donald S. Beyer, Jr., VA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Raul R. Labrador, ID                 Alan S. Lowenthal, CA
Doug LaMalfa, CA                     Debbie Dingell, MI
Bruce Westerman, AR                  Lois Capps, CA
Dan Newhouse, WA                     Jared Polis, CO
Ryan K. Zinke, MT                    Vacancy
Jody B. Hice, GA                     Vacancy
Thomas MacArthur, NJ                 Vacancy
Cresent Hardy, NV                    Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio

                              -----------                                
                                
                                CONTENTS

                              -----------                              
                                                                   Page

Hearing held on Wednesday, December 2, 2015......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     9
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     7
        Prepared statement of....................................     8
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Tsongas, Hon. Niki, a Representative in Congress from the 
      State of Massachusetts.....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Jarvis, Jonathan B., Director, National Park Service, 
      Washington, DC.............................................    10
        Prepared statement of....................................    11
        Questions submitted for the record.......................    13
    MacDonald, David, President, Friends of Acadia, Bar Harbor, 
      Maine......................................................    18
        Prepared statement of....................................    20
    Nau, John L., III, Vice Chairman (2012-2013), National Park 
      Foundation, Houston, Texas.................................    23
        Prepared statement of....................................    24

Additional Materials Submitted for the Record:
    Association of Partners for Public Lands, December 1, 2015, 
      Letter submitted for the record............................    57
    Crandall, Derrick, Counselor, National Park Hospitality 
      Association, prepared statement of.........................    53
    National Parks Second Century Action Coalition, December 3, 
      2015, Letter submitted for the record......................    62
    The Corps Network, December 1, 2015, Letter submitted for the 
      record.....................................................    61
                                     


 
  LEGISLATIVE HEARING ON DISCUSSION DRAFT, H.R. ____, TO PREPARE THE 
   NATIONAL PARK SERVICE FOR ITS CENTENNIAL IN 2016 AND FOR A SECOND 
CENTURY OF PROMOTING AND PROTECTING THE NATURAL, HISTORIC, AND CULTURAL 
RESOURCES OF OUR NATIONAL PARKS FOR THE ENJOYMENT OF PRESENT AND FUTURE 
GENERATIONS, AND FOR OTHER PURPOSES, ``NATIONAL PARK SERVICE CENTENNIAL 
                                 ACT''

                              ----------                              


                      Wednesday, December 2, 2015

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Gohmert, Lummis, 
Westerman, Hice, Hardy, LaHood, Bishop; Tsongas, Beyer, 
Huffman, Lowenthal, Dingell, Capps, and Grijalva.
    Mr. McClintock. The hour of 10:00 having arrived, the 
Federal Lands Subcommittee will come to order. The subcommittee 
meets today to hear testimony on a discussion draft of the 
``National Park Service Centennial Act.'' We will begin with 5-
minute opening statements by the Chairman of the Subcommittee, 
the Ranking Member, the Chairman of the Full Committee, and the 
Ranking Member of the Full Committee, if he would like to join 
us.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Next year marks the 100th anniversary of 
the National Park Service. This year-long celebration of the 
national parks affords us a unique opportunity to reflect on 
the past, assess the present, and make adjustments for the 
future.
    The Centennial pays tribute to the uniquely American notion 
that our most beautiful and historic lands should be set aside 
for the use and enjoyment of the people of the United States. 
In the words of the Organic Act of 1916, ``to conserve the 
scenery and the natural and historic objects and the wild life 
therein and to provide for the enjoyment of the same. . .''
    Yet, as we approach the Centennial, the Park Service faces 
considerable challenges to achieving the goals set forth in the 
Organic Act, chief among them being a massive $11.5 billion 
deferred maintenance backlog. As the Park Service has gradually 
taken on new responsibilities, and Congress has voted to add 
new units to the system, the Park Service has fallen behind on 
necessary projects. With 409 units now included in the system, 
the Park Service is spread thin.
    In addition to deferred maintenance projects, the Park 
Service also faces challenges with fee collection, 
technological upgrades, management of concessions contracts for 
visitor services, and, most disturbingly, a decrease in 
overnight stays at our parks. We have been told that visitation 
is at an all-time high, but this is an illusion created by new 
memorials in Washington, DC. In fact, per capita visitation to 
our parks has steadily declined since the peaks of the late 
1980s and early 1990s.
    From their all-time highs, in-park concessioner lodging is 
down by 722,000 persons annually, or about 17 percent. Tent 
campers are down by about 1.37 million overnights, about 26 
percent. The decline in visitation has been particularly high 
among young people. In fact, most ominously, recent reports 
indicate that visits to parks by those 15 and younger fell by 
50 percent in the last decade.
    Meanwhile, RV camper overnight stays are down by 2.6 
million camper nights, about 56 percent, despite the fact that 
RV ownership and RV stays at private campgrounds has grown 
dramatically.
    This subcommittee is especially concerned over policies 
that are actively removing traditional tourist amenities from 
our national parks.
    Two years ago, the National Park Service proposed removing 
long-standing tourist facilities from Yosemite Valley, 
including bicycle and raft rentals, snack facilities, gift 
shops, horseback riding rentals, the iconic ice skating rink at 
Curry Village, the art center, the grocery store, swimming 
pools, and even the Valley's landmark and historic stone 
bridges.
    Their current plan locks in a 30 percent reduction in 
campsites and lodging, compared to historic highs, including 
loss of prime sites close to the river. Funds appropriated by 
Congress to restore campsite levels after the 1997 flood were 
not spent as Congress instructed.
    I cannot think of a better way to approach the next century 
of our National Park Service than to restore the vision of its 
founders. Our national parks should be open to the public for 
all recreational pursuits: hiking, biking, fishing, 
snowmobiling, horseback riding, skiing, rafting, skating, 
RVing, camping, or staying in a historic lodge. These are the 
priceless memories our parks are there to create for succeeding 
generations of Americans.
    The discussion draft before the subcommittee today helps 
the Park Service to prepare for its nationwide celebration in 
2016, as well as better equipping the Service for the next 
century of promoting and protecting our parks. Provisions in 
the bill help reduce the Service's deferred maintenance backlog 
by creating new sources of revenue to pay for needed 
improvements. Other provisions will help the Service expand its 
Volunteers-In-Parks and Public Land Corps programs, as well as 
making needed changes to the National Park Foundation Board of 
Directors.
    Our witnesses today have come to share their views on how 
to best prepare the Park Service for its Centennial, and how we 
can improve park management and visitation. I thank each of 
them for their willingness to testify before this subcommittee 
today, and for their dedication to ensuring that our national 
parks are on a path toward greater sustainability.
    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    Today, the Federal Lands Subcommittee meets to hear testimony on a 
discussion draft of the National Park Service Centennial Act.
    Next year marks the 100th anniversary of the National Park Service. 
This year-long celebration of our National Parks affords us a unique 
opportunity to reflect on the past, assess the present, and make 
adjustments for the future.
    The Centennial pays tribute to the uniquely American notion that 
our most beautiful and historic lands should be set aside for the use 
and enjoyment of the people of the United States. In the words of the 
Organic Act of 1916, ``to conserve the scenery and the natural and 
historic objects and the wild life therein and to provide for the 
enjoyment of the same.''
    Yet, as we approach the Centennial, the Park Service faces 
considerable challenges to achieving the goals sets forth in the 
Organic Act, chief among them being the massive 11.5 billion dollar 
deferred maintenance backlog. As the Park Service has gradually taken 
on new responsibilities and Congress has voted to add new units to the 
system, the Park Service has fallen behind on necessary projects. With 
409 units now included in the system, the Park Service is spread thin.
    In addition to deferred maintenance projects, the Park Service also 
faces challenges with fee collection, technological upgrades, 
management of concessions contracts for visitor services, and most 
disturbingly, a decrease in overnight stays at our parks. We have been 
told that visitation is at an all-time high, but this is an illusion 
created by new memorials in Washington, DC. In fact, per capita 
visitation to our parks has steadily declined since the peaks of the 
late 1980s and early 1990s.
    From their all-time highs, in-park concessioner lodging is down by 
722,000 persons annually, or about 17 percent. Tent campers are down by 
1.37 million overnights, about 26 percent. The decline in visitation 
has been particularly high among young people.
    RV camper overnight stays are down by 2.6 million camper nights--
about 56 percent, despite the fact that RV ownership and RV stays at 
private campgrounds has grown dramatically.
    Most ominously, recent reports indicate that visits to parks by 
those 15 and younger fell by 50 percent in the last decade.
    This subcommittee is especially concerned over policies that are 
actively removing traditional tourist amenities from our national 
parks.
    Two years ago, the National Park Service proposed removing long-
standing tourist facilities from Yosemite Valley, including bicycle and 
raft rentals, snack facilities, gift shops, horseback riding rentals, 
the iconic ice-skating rink at Curry Village, the art center, the 
grocery store, swimming pools, and even the Valley's landmark and 
historic stone bridges.
    Their current plan locks in a 30 percent reduction in campsites and 
lodging compared to historic highs, including loss of prime sites close 
to the river. Funds appropriated by Congress to restore campsite levels 
after the 1997 flood were not spent as Congress instructed.
    I can't think of a better way to approach the next century of our 
National Park Service than to restore the vision of its founders. Our 
national parks should be open to the public for all recreational 
pursuits--hiking, biking, fishing, snowmobiling, horseback riding, 
skiing, rafting, skating, RVing, camping, staying in a historic lodge--
these are the priceless memories our parks are there to create for 
succeeding generations of Americans.
    The discussion draft before the subcommittee today helps the Park 
Service to prepare for its nationwide celebration in 2016, as well as 
better equips the Service for the next century of promoting and 
protecting our parks. Provisions in the bill help reduce the Service's 
deferred maintenance backlog by creating new sources of revenue to pay 
for needed improvements. Other provisions will help the Service expand 
its Volunteers-in-Parks and Public Lands Corps programs, as well as 
making needed changes to the National Park Foundation Board of 
Directors.
    Our witnesses today have come to share their views on how to best 
prepare the Park Service for its Centennial, and how we can improve 
park management and visitation. I thank each of them for their 
willingness to testify before this subcommittee today and for their 
dedication to ensuring that our national parks are on a path toward 
greater sustainability.

                                 ______
                                 

    Mr. McClintock. And, with that, I recognize the Ranking 
Member for 5 minutes.

    STATEMENT OF THE HON. NIKI TSONGAS, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Ms. Tsongas. Thank you, Mr. Chairman. As we prepare for 
next year's centennial anniversary of the National Park 
Service, I am reminded of something Stephen Mather, that 
agency's very first director, once said. Reflecting on the new 
agency, he remarked that, ``The parks do not belong to one 
state or to one section. . . . The Yosemite, the Yellowstone, 
the Grand Canyon are national properties in which every citizen 
has a vested interest; they belong as much to the man''--and I 
would add, woman--``of Massachusetts, of Michigan, of Florida, 
as they do to the people of California, of Wyoming, and of 
Arizona.''
    These words are a powerful reminder in this era of 
political division and disagreement: national parks cut across 
party lines and geographic boundaries; they enjoy bipartisan 
support; and they bring people together, something we seem to 
need now, more than ever, to celebrate in our Nation's great 
traditions, history, and natural legacy.
    For almost 100 years, generation after generation of 
Americans have made the commitment that our most significant 
historical, cultural, and natural sites should be preserved in 
perpetuity for future generations. Our national parks have been 
famously called ``America's best idea,'' and have become 
ingrained in our national identity--places like the Grand 
Canyon, Yellowstone, Ellis Island, and, in my own district, 
Minute Man National Historical Park, which commemorates the 
``shot heard 'round the world,'' and the very beginnings of our 
country. These parks protect, celebrate, and give access to the 
many places that have shaped and defined who we are, as a 
people and a country; and it is important to remember that 
these places would not have been protected, absent support from 
the Federal Government.
    And investments in our parks make economic sense. 
Nationally, the parks generate nearly $30 billion in economic 
activity, and support 250,000 private sector jobs. When people 
visit our national parks, they also support nearby restaurants, 
hotels, and local outfitters and guides, and bring attention to 
the unique attributes of a hosting community. According to a 
recent economic study conducted by the National Park Service, 
every Federal dollar invested in our parks contributes $10 in 
economic activity.
    Despite its significant and multi-faceted contributions, 
however, the Park Service budget has been shrinking. In just 
the past 10 years, the Park Service has had its budget 
decreased by 22 percent, compromising its ability to ensure the 
long-term protection of our treasured national heritage. This 
dramatic reduction in funding has occurred, despite widespread 
support for Federal investment in the National Park Service. In 
fact, a recent poll commissioned by the National Parks 
Conservation Association found that 9 in 10 Americans--
Republicans, Democrats, and Independents--support sustained 
funding for national parks.
    The discussion draft we are considering today could be an 
important first step to commemorate the 2016 Centennial. Many 
of the provisions in the bill before us today have bipartisan 
support, and were also included in H.R. 3556, also called the 
``National Park Service Centennial Act,'' which was introduced 
by Ranking Member Grijalva.
    For example, the draft legislation makes a commitment to 
the Centennial Challenge, a matching grant program that 
leverages Federal dollars to encourage private investments to 
support signature centennial projects identified by the 
National Park Service. The draft legislation also establishes 
an endowment at the National Park Foundation to support the 
missions and goals of the Park Service, and makes improvements 
to the Volunteers-In-Parks program.
    While I am thankful to be discussing this draft 
legislation, I fear that it is an exercise in wishful thinking. 
I agree with the Majority that we must address the maintenance 
backlog in order to enhance visitor experiences and preserve 
our parks for the next generation. But making a dent in the 
maintenance backlog is going to require significant investment, 
and this legislation does not authorize any new Federal dollars 
for our national parks in their centennial year. New revenue 
generated by fees will not solve this problem.
    H.R. 3556, introduced by Ranking Member Grijalva, provides 
$300 million for a new Second Century Infrastructure Investment 
Fund to address critical maintenance backlog needs. It also 
provides $100 million to establish the Public Land Centennial 
Investment Program, a competitive fund open to our four land 
management agencies for top-priority visitor services, outdoor 
recreation, land and water restoration, and energy efficiency 
projects.
    Mr. Grijalva's legislation also fully funds the Centennial 
Challenge at $100 million, maximizing our opportunity to 
generate private matching funds. And it authorizes these new 
programs only through 2018, demonstrating a clear commitment to 
projects that can have an immediate impact on our parks, and 
quickly address some of the deferred maintenance backlog.
    Next year, all eyes will be on our national parks and the 
expected influx of visitors. I look forward to working with my 
colleagues to reach a bipartisan compromise on the two 
proposals for the ``National Park Service Centennial Act.''
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Tsongas follows:]
     Prepared Statement of the Hon. Niki Tsongas, Ranking Member, 
                     Subcommittee on Federal Lands
    As we prepare for next year's Centennial Anniversary of the 
National Park Service, I'm reminded of something Stephen Mather, that 
agency's very first director, once said. Reflecting on the new agency, 
he remarked that ``the parks do not belong to one state or to one 
section . . . The Yosemite, the Yellowstone, the Grand Canyon are 
national properties in which every citizen has a vested interest; they 
belong as much to the man (and I would add, women) of Massachusetts, of 
Michigan, of Florida, as they do to the people of California, of 
Wyoming, and of Arizona.''
    Those words are a powerful reminder in this era of political 
division and disagreement: national parks cut across party lines and 
geographic boundaries; they enjoy bipartisan support, and they bring 
people together, something we seem to need now more than ever.
    For almost 100 years, generation after generation of Americans have 
made the commitment that our most significant historical, cultural, and 
natural sites should be preserved in perpetuity for future generations. 
Our national parks have been famously called ``American's best idea'' 
and have become ingrained in our national identity--places like the 
Grand Canyon, Yellowstone, Ellis Island, and in my own District, Minute 
Man National Historical Park, which commemorates the shot heard `round 
the world' and the very beginnings of our country. These parks protect, 
celebrate, and give access to the many places that have shaped and 
defined who we are, as a people and a country, and it is important to 
remember that these places would not have been protected, absent 
support from the Federal Government.
    And investments in our parks make economic sense. Nationally, the 
parks generate nearly $30 billion in economic activity and support 
250,000 private sector jobs. When people visit our national parks, they 
also support nearby restaurants, hotels, and local outfitters and 
guides. According to a recent economic study conducted by the National 
Park Service, every Federal dollar invested in our parks contributes 
$10 in economic activity.
    Despite its significant and multi-faceted contributions, however, 
the Park Service budget has been shrinking. In just the past 10 years, 
the Park Service has had its budget decreased by 22 percent, 
compromising its ability to ensure the long-term protection of our 
treasured national heritage. This dramatic reduction in funding has 
occurred, despite widespread support for Federal investment in the 
National Park Service. In fact, a recent poll commissioned by the 
National Parks Conservation Association found that 9 in 10 Americans--
Republicans and Democrats--support sustained funding for national 
parks.
    The discussion draft we are considering today could be an important 
first step to commemorate the 2016 Centennial. Many of the provisions 
in the bill before us today have bipartisan support, and were also 
included in H.R. 3556, also called the National Park Service Centennial 
Act, which was introduced by Ranking Member Grijalva.
    For example, the draft legislation makes a commitment to the 
Centennial Challenge, a matching grant program that leverages Federal 
dollars to encourage private investments to support signature 
Centennial projects identified by the National Park Service. The draft 
legislation also establishes an endowment at the National Park 
Foundation to support the missions and goals of the Park Service, and 
makes improvements to the Volunteers-in-Parks program.
    While I am thankful to be discussing this draft legislation, I fear 
that it is an exercise in wishful thinking. I agree with the Majority 
that we must address the maintenance backlog in order to enhance 
visitor experiences and preserve our parks for the next generation. But 
making a dent in the maintenance backlog is going to require 
significant investment and this legislation doesn't authorize any new 
Federal dollars for our national parks in their Centennial year. New 
revenue generated by fees will not solve this problem.
    H.R. 3556, introduced by Ranking Member Grijalva, provides $300 
million for a new Second Century Infrastructure Investment Fund to 
address critical maintenance backlog needs. It also provides $100 
million to establish the Public Land Centennial Investment Program, a 
competitive fund open to our four land management agencies for top 
priority visitor services, outdoor recreation, land and water 
restoration, and energy efficiency projects.
    Mr. Grijalva's legislation also fully funds the Centennial 
Challenge at $100 million, maximizing our opportunity to generate 
private matching funds. And it authorizes these new programs only 
through 2018, demonstrating a clear commitment to projects that can 
have an immediate impact on our parks and quickly address some of the 
deferred maintenance backlog.
    Next year, all eyes will be on our national parks and the expected 
influx of visitors. I look forward to working with my colleagues to 
reach a bipartisan compromise on the two proposals for the National 
Park Service Centennial Act.

    With that, Mr. Chairman, I yield back.

                                 ______
                                 

    Mr. McClintock. Great, thank you. I am now pleased to 
recognize the Chairman of the Natural Resources Committee----
    Mr. Bishop. The Ranking Member first?
    Mr. McClintock. You want to go? OK. At the Chairman's 
request, we will go to the Ranking Member, Mr. Grijalva, for 5 
minutes.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Chairman, and thank you, Chairman 
Bishop.
    Let me associate myself with the Ranking Member's comments, 
essentially the comments that I intended to make and will not 
repeat. In Chairman Bishop's proposed draft that we are going 
to be discussing today, there are two glaring issues. One of 
the glaring omissions is the fact that we are not dealing with 
the issue of funding and resources.
    Given the fact that the Park Service has lost 16 percent of 
its funding over the last 10 years, which is a self-fulfilling 
prophecy, it has added to the backlog of deferred maintenance 
in the Park System. It has added to the reduction of staff, and 
has hurt our outreach efforts and our ability to enhance the 
experience by having qualified staff at our parks to be able to 
work with the public and lead them through the experience, as 
we know it.
    So, there are all these contributing factors--the backlog, 
visitorship drop, and rewriting the concessionaire relationship 
between the Park Service, essentially taking the Park Service 
out of the equation in terms of what is appropriate in any 
given unit. I think these factors are all part of a draft 
discussion that merits much more work, and also an opportunity, 
as Ms. Tsongas said, to work on something bipartisan.
    It has to be an investment. The legislation that the 
Administration and the agency sent over became H.R. 3556, and 
essentially talks about a $900 million investment. Ms. Tsongas 
outlined some of the critical areas there. But, the glaring 
omission of no funding, no resources, and the self-fulfilling 
prophecy that we continue to cut at the agency and then blame 
the agency for backlogs, for not being able to respond to 
changing times and needs, and for not having the ability to 
attract more visitorship. This is not the way to walk into 
celebrating 100 years of our National Park System.
    I would suggest that, as we go forward, the omission of 
funding and looking closely at what those cuts have done to the 
Park Service is a good use of our time; and I look forward to 
working with the Chairman and the Ranking Member of the 
Subcommittee, and the Chairman of the Full Committee, on 
possible areas in which there can be some agreement and some 
compromise.
    But, essential to celebrating the Centennial is also 
America's investment in its parks, a legacy that is 100 years 
old. Many of us, although we will not be around, would like to 
see that celebrated another 100 years from now, with the proper 
direction and the proper investment on the part of Congress.
    With that, I yield back, and thank you, Mr. Chairman.
    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, a Representative in 
                   Congress from the State of Arizona
    Next year marks the 100th anniversary of the National Park Service 
and Congress has the responsibility to invest in our national parks, 
ensuring that they will endure another century and continue to 
represent the diverse voices and communities that make up our great 
country. That's why I decided to introduce the Administration's version 
of the National Park Service Centennial Act when they sent it to 
Congress. After 100 years of safeguarding our most treasured places--
from Grand Canyon and Saguaro National Parks in my home state of 
Arizona to Lowell and Minute Man National Historical Parks in Ranking 
Member Tsongas' district--it seemed only appropriate to work with and 
introduce the agency's proposal.
    My bill, H.R. 3556, is very similar to the discussion draft shared 
by Chairman Bishop, except for one main difference: my bill invests 
$900 million over the next 3 years. The Chairman's bill does not 
include any new Federal spending.
    Over the past 10 years, the budget for the National Park Service 
has decreased by nearly 16 percent. This has led to a growing 
maintenance backlog of over $11 billion. If we don't begin to rectify 
this funding shortfall, the backlog will only continue to grow. House 
Republicans like to complain that the Park Service and other Federal 
land management agencies are unable to take care of the assets under 
their management and use this as an excuse to rake agency 
decisionmaking procedures and personnel over the coals. The reality is 
that starving agencies like the National Park Service of the resources 
they need to manage our shared public heritage is a self-fulfilling 
prophecy. Of course there is an ever-expanding backlog of maintenance 
and infrastructure needs: Congress refuses to appropriate enough money.
    Forced austerity is not the answer. The investments we make in our 
public lands are multiplied many times over. In the case of national 
parks, every dollar invested generates $10 dollars in economic 
activity. Gateway communities around the country and the $600 billion 
outdoor recreation economy rely on Federal investments to enhance 
national economic output.
    Next year's National Park Service Centennial Celebration provides 
us with an excellent opportunity to right the ship and inject much 
needed investment into our national parks. The National Park Service 
Centennial Act could be the perfect vehicle. Unfortunately, the 
discussion draft falls short. Despite all of the rhetoric about the 
need to address the maintenance backlog, funding for infrastructure and 
construction needs is neglected by the discussion draft. It's my 
understanding that Park Service requires upwards of $800 million per 
year just to maintain the status quo and prevent the backlog from 
growing. This bill does not provide anything.
    My bill authorizes $300 million over the next 3 years for the 
Second Century Infrastructure Fund to address maintenance needs. If we 
are going to do something for the Centennial, we should do something 
that affirms our long-term commitment to national parks. My bill also 
provides the Centennial Challenge with $100 million per year for the 
next 3 years.
    The Centennial Challenge, a program first established under 
President George W. Bush, leverages Federal dollars with matching 
private donations to fund signature projects across the National Park 
System. Last year, Congress provided $10 million for the Centennial 
Challenge which was matched by $15 million in private donations. As 
we'll hear from today's witnesses, this successful program is essential 
to the support provided by Friends groups all over the county.
    While I recognize that this program is included in the discussion 
draft, it's important that we provide it with consistent, sustained 
funding. Private donors are more willing to participate if they know 
Congress is willing to offer matching funds. Like with all funding for 
the national parks, there needs to be a long-term commitment.
    I thank the Chairman for putting forward this proposal and I look 
forward to working together to find a compromise.
    Let's not wait until some future anniversary to make sure our 
national parks have the funding they need. We owe it to the next 
generation of Americans to get it right now.

                                 ______
                                 

    Mr. McClintock. Thank you.
    The Chair now recognizes the Chairman of the Natural 
Resources Committee, Congressman Rob Bishop, for 5 minutes.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate the 
opportunity, I appreciate our witnesses being here, and look 
forward to your testimony very significantly.
    I must disagree with the Ranking Member on just one point: 
the parks are not America's greatest idea--baseball is. The 
parks are just nice.
    [Laughter.]
    Mr. Bishop. Parks are nice. But 100 years ago, we created 
the Park Service. There were only 35 units then. Today, there 
are 409, about 84 million acres are covered; and you do have a 
maintenance backlog of about $12 billion.
    So, we obviously have to look forward to what is going on, 
and how we move forward into the next 100 years. The Park 
Service, I admit, is spread thin. Congress is somewhat to blame 
for that. Not necessarily in what we are doing, but we keep 
adding units to the Park Service without new funding 
mechanisms. It is fun and sexy to add a new unit to the Park 
Service. It is not fun or sexy to talk about fixing a sewer 
system. Yet that is exactly what we need to do with this 
centennial.
    So, we can authorize anything we want to, that does not 
mean it is going to be appropriated. In this era of offsets 
that must be found for anything which we develop, an era where 
there are cut-go and pay-go programs identified by both 
parties, which may be an accounting technique, but it is still 
necessary and what we have to go through, it is time for us to 
be realistic about where we can go to move forward, and to 
realize that what we have to do is do something differently 
than what we have done in the past.
    That is why I am looking forward to coming up with new 
tools and new sources of revenue that can be used by the Park 
Service going into the next 100 years. I am looking forward to 
working with Mr. Grijalva to come up with what will, hopefully, 
be a bipartisan approach, which is why this is a discussion 
draft, which means, quite frankly, we are open to suggestions.
    But, I think what we need to do is make sure that the 
status quo is not acceptable, and we need to come up with new 
mechanisms, new approaches, and emphasis on that in a realistic 
pattern of what can be accomplished and where we can actually 
accomplish something, as we move forward for the next 100 
years.
    With that, I look forward to the testimony and the 
questions that may be given, and I yield back.
    Mr. McClintock. Now we will hear from our witnesses. I 
think you are all veterans of this committee--5 minutes for 
your oral statements, the complete statement will be printed in 
the record. We have some helpful colored lights to keep you on 
track, with the yellow light indicating you have 1 minute 
remaining, and the red light--it means, for heaven's sakes, 
stop.
    [Laughter.]
    Mr. McClintock. With that, I am very pleased to welcome 
back to the committee the Director of the National Park 
Service, Jonathan Jarvis, for 5 minutes.

   STATEMENT OF JONATHAN B. JARVIS, DIRECTOR, NATIONAL PARK 
                    SERVICE, WASHINGTON, DC

    Mr. Jarvis. Thank you, Mr. Chairman, for the opportunity to 
discuss the ``National Park Service Centennial Act'' with you 
today.
    In 2016, the National Park Service will celebrate 100 years 
as the steward of the Nation's most cherished natural and 
cultural resources. We are actively preparing for our second 
century, and working hard to connect with, create, and enhance 
the experience for the next generation of park visitors, 
supporters, and advocates.
    Earlier this year, in partnership with the National Park 
Foundation, we launched a campaign to encourage the next 
generation to experience the national parks; and we are already 
seeing those results. In 2014, we experienced record visitation 
with over 292 million visitors, and we are on track to exceed 
that number this year. These visits do more than provide 
inspirational, educational, and recreational opportunities. In 
2014, they drove $29.75 billion in economic impact, and 
supported hundreds of thousands of jobs around the country.
    Another component of our Centennial effort is legislation 
to establish, clarify, or expand a number of key existing 
authorities to allow us to better serve the American people. 
Today, the subcommittee is considering a discussion draft bill, 
the ``National Park Service Centennial Act.'' This draft is 
comprised of elements of the Administration's legislative 
proposal of the same title, which was transmitted by Secretary 
Jewell on August 31, and was subsequently introduced by 
Representative Grijalva as H.R. 3556.
    We appreciate the committee's interest in acting on the 
Centennial legislation, and we look forward to working with 
you. The Department will provide views specifically on the 
draft legislation of today's hearing after the bill's 
introduction.
    The Administration's proposed Centennial Act will provide 
new sources of funding and strengthen our ability to manage and 
operate the national parks and programs into the future. The 
proposal has 10 titles.
    Title I, the Centennial Declaration, would recognize that 
we have responsibilities not only for administering the units 
of the National Park System, but also for programs to provide 
financial and technical assistance to states, communities, and 
individuals to protect our Nation's heritage.
    Title II would establish the National Park Centennial Fund, 
consisting of a mandatory appropriation of $100 million for 3 
years to be able to use as a match for signature partnership 
projects.
    Title III would provide a mandatory appropriation of $300 
million for 3 years to correct maintenance backlog 
deficiencies.
    Title IV would establish a Centennial Land Management 
Investment Fund consisting of a mandatory appropriation of $100 
million for 3 years to provide funding for a multi-agency 
competitive program.
    Title V would direct the National Park Foundation to 
establish a Second Century Endowment for projects and 
activities that further the mission of the Service. And, of 
course, the discussion draft bill includes the similar 
provision.
    Title VI would establish a National Park Service Centennial 
Second Century Fund in the Treasury funded through lodging 
fees, and from purchases of senior passes for citizens 62 years 
or older. The discussion draft also has a similar provision.
    Title VII would provide clear authority for the 
interpretation and education work by consolidating authorities. 
It would raise the age limit for the Public Land Corps, extend 
the period for hiring members of the PLC, and would remove the 
$3.5 million authorization ceiling for the Volunteers-In-Parks 
program. And, of course, the discussion draft has similar 
provisions.
    Title VIII would establish a new Visitor Services 
Management Authority to award and manage contracts for the 
operation of commercial services.
    Title IX would authorize agreements for the creation of 
reproductions of museum objects.
    And Title X would redesignate the Secretary of the Interior 
and the Director of the Park Service as ex officio members of 
the National Park Foundation Board, and authorize an 
appropriation of $25 million for 10 years. The discussion draft 
also has these provisions.
    We greatly appreciate the committee's leadership on this 
issue, and your work on the discussion draft. We look forward 
to working with you on this effort, as it will assist the 
National Park Service in achieving its mission as we enter our 
second century of service.
    Mr. Chairman, that concludes my statement. I will be 
pleased to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Jarvis follows:]
   Prepared Statement of Jonathan B. Jarvis, Director, National Park 
        Service, U.S. Department of the Interior, Washington, DC
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the National Park 
Service Centennial Act.
    In 2016, the NPS will celebrate 100 years as the steward of the 
Nation's most cherished natural and cultural resources. As outlined in 
our Centennial Plan, A Call to Action, the NPS is actively preparing 
for its second century of operations, and working hard to connect with 
and create the next generation of park visitors, supporters, and 
advocates. Earlier this year, the NPS, in partnership with the National 
Park Foundation, launched a campaign to engage the next generation and 
new audiences in the life-enhancing and sometimes life-changing 
experiences at national parks. Our efforts will draw new visitors, 
especially Millennials and young families, to experience the national 
parks. We experienced a record year in 2014 with over 292 million 
visitors and are on track to exceed that number in 2015. These visits 
do more than provide inspirational, educational and recreational 
opportunities; in 2014, they drove $29.75 billion \1\ in economic 
impact, supporting hundreds of thousands of jobs in communities around 
the country. We are also working with the National Park Foundation to 
leverage the interest of major corporate partners in engaging with this 
once in a lifetime anniversary.
---------------------------------------------------------------------------
    \1\ ``2014 National Park Visitor Spending Effects Report,'' 
National Park Service, accessed November 30, 2015, http://
www.nature.nps.gov/socialscience/docs/VSE2014_Final.pdf.
---------------------------------------------------------------------------
    As we look ahead to the next century, another component of our 
Centennial effort is legislation to establish, clarify or expand a 
number of key existing NPS authorities to allow us to better serve the 
American people. Today the subcommittee is considering a discussion 
draft bill, The National Park Service Centennial Act. This draft 
legislation is comprised of elements of the Administration's 
legislative proposal of the same title, which was transmitted by 
Secretary Jewell on behalf of the Administration on August 31, 2015, 
and was subsequently introduced by Rep. Grijalva as H.R. 3556. We 
appreciate the subcommittee's interest in acting on Centennial 
legislation and we look forward to continued discussions with you. The 
Department will provide specific views on the legislation after the 
bill is introduced.
    The Administration's proposed National Park Service Centennial Act 
would provide new sources of funding and strengthen the ability of the 
National Park Service to manage and operate the national parks and 
programs that provide so many important natural, cultural, and 
recreational benefits to the Nation. There are 10 titles included in 
the legislation.
    Title I, the Centennial Declaration, would recognize that the NPS 
has responsibility not only for administering the units of the National 
Park System, but for programs that provide financial and technical 
assistance to states, communities, and individuals to protect our 
national heritage. Title I would also direct the Secretary of the 
Interior to utilize these financial and technical assistance programs 
to further the conservation and enjoyment of the natural and cultural 
heritage of the Nation for the benefit and inspiration of the public.
    Titles II-IV would implement part of the President's Fiscal Year 
(FY) 2016 Budget request to Congress. Title II would establish a 
National Park Centennial Challenge Fund, consisting of a mandatory 
appropriation of up to $100 million for FY 2016, FY 2017, and FY 2018 
to be used as the Federal match for signature partnership projects that 
will help prepare the national parks for another century of 
conservation, preservation, and enjoyment.
    Title III would provide a mandatory appropriation of $300 million 
to the NPS Construction Account for FY 2016, FY 2017, and FY 2018, to 
correct deficiencies in NPS infrastructure and facilities. In addition 
to requested discretionary appropriations, funding from Titles II and 
III would be directed toward NPS' deferred maintenance backlog and 
would restore and maintain all high-priority non-transportation assets 
into good condition over 10 years, consistent with the FY 2016 Budget 
proposal.
    Title IV would establish the Centennial Land Management Investment 
Fund, consisting of a mandatory appropriation equal to $100 million for 
FY 2016, FY 2017, and FY 2018 to provide funding for the Secretaries of 
the Interior and Agriculture to jointly establish a competitive program 
available to the four Federal land management agencies for projects 
that enhance visitor services and outdoor recreational opportunities, 
restore lands and waters, repair facilities or trails, or increase 
energy and water efficiency.
    Title V would direct the National Park Foundation to establish a 
special account known as the Second Century Endowment for the NPS, 
consisting of gifts or bequests provided for this purpose, for projects 
and activities that further the mission of the NPS.
    Title VI would establish the NPS Second Century Fund in the 
Treasury, which would be funded through additional lodging and camping 
fees and additional funds collected from purchases of the lifetime pass 
for citizens 62 years of age or older.
    Title VII would clarify or expand authorities for activities that 
the NPS are already conducting to allow us to better serve the American 
people. This includes providing clear authority for the interpretation 
and education work of the NPS by consolidating a number of disparate 
authorities currently used, and directing the Secretary to ensure that 
management of National Park System units and related areas is enhanced 
by the availability and utilization of a broad program of the highest 
quality interpretation and education. Title VII would also raise the 
age limit for participation in the Public Lands Corp from 25 to 30 and 
extend the direct-hire authority from 120 days to 2 years, consistent 
with Department of the Interior resource assistant direct-hire 
authority. And, this title would remove the $3.5 million authorization 
ceiling for the Volunteers-In-Parks to accommodate the funding needed 
to support this growing program.
    Title VIII would establish the NPS Visitor Services Management 
Authority (VMSA), and authorize the Secretary to establish a pilot 
program to allow the VMSA to award and manage contracts for the 
operation of commercial visitor services programs and activities.
    Title IX would authorize the Secretary to enter into agreements for 
the creation of reproductions of a museum object in which the object 
and its intellectual property rights are under the control of the 
Secretary.
    Title X would redesignate the Secretary of the Interior and the 
Director of the NPS as ex officio members of the NPF Board. It also 
would authorize appropriations of $25 million for each of FY 2016 
through FY 2026 to NPF that would be used to leverage additional non-
Federal funds to support our national parks.
    The provisions I have just outlined are the key components we 
believe are necessary to move the National Park Service into its second 
century.
    We appreciate the opportunity to discuss these issues with you. We 
look forward to working with the Chairman and members of the 
subcommittee on this important legislative effort.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or the other members of the subcommittee may 
have.

                                 ______
                                 

  Questions Submitted for the Record to Jonathan B. Jarvis, Director, 
 National Park Service, U.S. Department of the Interior, Washington, DC
             Questions Submitted by Chairman Tom McClintock

    Question 1. Could you please provide the committee with the 
National Park Service's justification for banning bottled water in 
certain national parks?

    Answer. The National Park Service has not banned bottled water in 
national parks. NPS Policy Memorandum (PM) 11-03, Disposable Plastic 
Water Bottle Recycling and Reduction was published in December 2011. 
The policy has a four-pronged approach of encouraging water bottle 
recycling, reduction of disposable water bottle use, education 
regarding disposable waste bottles, and elimination of disposable water 
bottles sales within parks where appropriate.
    The policy includes an option for individual parks to eliminate 
sales, on a park-by-park basis, following extensive review and approval 
by the regional director. As part of this review, parks are required to 
evaluate the economic impacts of eliminating disposable water bottle 
sales on park concessioners as well as potential public health impacts 
on park visitors. Parks must show that they can avoid or mitigate any 
negative impacts prior to the regional director approving the 
elimination of sales. The policy is intended to reduce the 
environmental and cost impacts of disposable water bottles on parks.
    National parks spend significant amounts of money on the management 
of solid waste, including disposable plastic water bottles. Reduction 
of waste is a highly successful approach for the National Park Service, 
as it contributes to reducing the overall costs for parks to provide 
sanitary trash collection and disposal services, reducing our 
environmental footprint, and reducing the greenhouse gas emissions 
associated with trash collection and disposal.
    Visitors to all national parks continue to have access to unlimited 
drinking water and carry bottled water in the containers of their 
choice, either refillable or disposable. Parks have also added water 
bottle refilling stations to make use of refillable water bottles more 
convenient, and will have available for purchase affordable, refillable 
water bottles that can be refilled at no cost.

    Question 2. Please provide the committee information about how the 
$900 million in 2010 was used. Why was this 35 percent increase in a 
single year's budget not reflected in the construction fund? Where did 
this money go?

    Answer. The National Park Service (NPS) received $750 million in 
supplemental, one-time American Recovery and Reinvestment Act (ARRA) 
funding in FY 2009, as well as increases to its annual budget in FY 
2009 and 2010.
    With the funding received under ARRA, projects were selected, using 
merit-based criteria. The NPS selected projects that addressed high-
priority restoration and preservation needs, addressed deferred 
maintenance, and enhanced critical facilities. This included a 
quantifiable improvement to the condition of NPS facilities and a 
reduction of over $500 million in deferred maintenance. NPS ARRA 
projects also improved the energy efficiency of facilities and 
equipment, expanded the use of renewable energy in parks, and 
encouraged the participation of young adults in their national parks. 
The NPS completed over 780 projects at 260 park units in 48 states and 
the District of Columbia with ARRA funds. ARRA grants were also awarded 
to 20 historically black colleges and universities for 21 historic 
preservation projects within the parameters of the Historic 
Preservation Fund.
    The increases to its annual budget in FY 2009 and 2010 supported a 
wide variety of NPS programs, including over $14 million for LWCF State 
Conservation Grants, nearly $9 million for grants from the Historic 
Preservation Fund to states and tribes, and $3 million for grants to 
Japanese American Confinement Sites. The additional funding also 
included more than $100 million in targeted park base increases to 
address high-priority needs at units across the National Park System, 
including $3.3 million to support drug eradication efforts on park 
lands, $11.9 million to enhance law enforcement and icon security 
provided by the United States Park Police, and over $44 million to 
support maintenance and repair of facilities.
    Between FY 2010 and FY 2015, the discretionary appropriations for 
NPS fell by $138.6 million. Additionally, the NPS has either fully or 
partially absorbed its fixed costs in each fiscal year, reducing the 
operational flexibility and capacity of its parks and programs.

        Questions Submitted by Representative Cynthia M. Lummis

    Question 1. Could you please provide the committee with a complete 
list of projects that the NPS was able to fund using the $10 million 
from the Centennial Challenge Fund? How were each of those projects 
matched with outside funding?

    Answer. See the following chart.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
         Questions Submitted by Representative Dan Newhouse

    Question 1. Whenever the cost of access to publicly-owned lands or 
facilities is increased, I believe it is essential that it comes with 
commensurate increases in the quality of the user's experience. How 
will the additional revenues raised by this proposal improve the 
visitor's experience at national parks?

    Answer. The additional revenues from lodging fees and the increase 
to the price of the senior pass will fund the NPS Second Century Fund. 
The Second Century Fund is a challenge program designed to match non-
Federal donations to Federal funds on at least a 1-to-1 basis for 
projects and programs that improve the visitor experience and preserve 
our natural and cultural resources. The fund will include projects 
similar in nature to the types of projects that have been funded under 
the smaller Centennial Challenge program, which have included youth 
education programs, trail rehabilitation, overlook restoration, 
campground enhancements, exhibit replacement, accessibility 
improvements, and other projects that enhance the experience of park 
visitors.

    Question 2. As you know, visitation at National Parks has declined 
by about 50 percent among youth over the past decade. How do you see 
this bill's provisions being used to reverse that troubling trend and 
help younger Americans appreciate our rich natural heritage?

    Answer. The goal of the National Park Service Centennial is to 
connect with and create the next generation of park visitors, 
supporters, and advocates. Outreach efforts are therefore aimed at 
reaching younger audiences. We are accomplishing this through several 
Centennial programs including the ``Find Your Park'' campaign, the 
``Every Kid in a Park'' initiative, and a multitude of other efforts 
that the NPS and our partners are engaged in.
    The proposed legislation will add to our Centennial effort by 
establishing, clarifying, and expanding a number of key existing NPS 
authorities to allow us to better serve the American people. Among the 
10 titles are many that would support youth engagement and education of 
our cultural and natural heritage.
    The Centennial Declaration would recognize that the NPS has 
responsibility not only for administering the units of the National 
Park System, but for programs that provide financial and technical 
assistance to states, communities, and individuals to protect our 
national heritage. Many of these programs aid youth in local 
communities by building trails and playgrounds or supporting outdoor 
educational programs.
    The National Park Centennial Challenge Fund would provide a Federal 
match for signature partnership projects that will help prepare the 
national parks for another century of conservation, preservation, and 
enjoyment. Many of the challenge projects funded in FY 2015 directly 
engaged youth through environmental or historic preservation project 
rehabilitation. Programs developed to engage youth are one of the 
priority considerations for future selections.
    Finally, the proposed legislation would clarify that interpretation 
and education are key functions of the National Park Service and it 
would encourage the use of current technologies and the development of 
educational programs that reach diverse groups. As the keeper of our 
Nation's historic places and critical ecosystems, the NPS is an 
important educational resource, promoting historical and scientific 
literacy and civic engagement skills. Through interpretation and 
education the NPS will continue to invite youth to connect with 
National Parks and their local communities.

    Question 3. Americans can already make donations if they wish to 
the National Park Service and the individual parks it operates. How 
does the proposed National Park Foundation Endowment improve the Park 
Service's ability to develop and utilize private support?

    Answer. Although Americans currently have the ability to make 
direct donations to the National Park Service and individual parks, it 
is our experience that donors are often reluctant to make a gift 
directly to a government agency, whether at the national or park level. 
However, they are drawn to supporting our nonprofit partners, such as 
the National Park Foundation, whose primary mission is to enrich our 
national parks and its programs through private support. The 
congressionally chartered Foundation has the staff, expertise, and time 
to work with them to structure and steward their gift and explore the 
tax implications. The nonprofit partner is also able to combine their 
donation with other gifts for greater impact.
    We believe in the coming years that the majority of private 
philanthropic support will come from individual bequests and planned 
gifts. Baby boomers--the richest generation in American history--are 
currently working on their wills and planned giving. The proposed 
endowment would allow the National Park Foundation to create incentives 
for donors to have their gift matched or leveraged for maximum benefit 
to the parks. The Foundation could also seed new and more ambitious 
projects to benefit groupings of parks or parks with similar meanings 
and introduce new audiences to park philanthropy.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much.
    We will next hear from Mr. David MacDonald, who is the 
President of the Friends of Acadia from Bar Harbor, Maine.

STATEMENT OF DAVID MacDONALD, PRESIDENT, FRIENDS OF ACADIA, BAR 
                         HARBOR, MAINE

    Mr. MacDonald. Mr. Chairman, Ranking Member Tsongas, and 
members of the committee, thank you for including me in today's 
discussion. My organization, and many others like it around the 
country, considers this proposed legislation an important step 
forward in funding our national parks.
    I have been lucky enough to grow up and live most of my 
life on Mount Desert Island on the coast of Maine, home to 
Acadia National Park. I currently serve as President and CEO of 
Friends of Acadia. We are a private, nonprofit organization 
with about 4,500 members. We work in close partnership with 
Acadia National Park, and have since our founding in 1986.
    Our members love their park and are very proud to give back 
to the park through our organization, either through charitable 
donations or through volunteer service. Thousands of hours each 
year are donated to the park through our organization.
    I hope that my testimony today, and the written testimony 
that I submitted, will give some specific examples of on-the-
ground projects in a park like Acadia that have benefited from 
this kind of model of a challenge fund that the Centennial Act 
proposes.
    I also hope that the examples will illustrate a handful of 
broader themes, which I will outline quickly here.
    Number one, parks do inspire philanthropy. At Acadia, we 
are finding that the Centennial in particular is resonating for 
people as an opportunity to be part of this historic legacy.
    Number two, challenge grants work, particularly when they 
are provided by the Federal Government. Our donors, from the 
largest, most sophisticated donors, to the smaller donors 
writing their first check for $25, respond to these challenge 
opportunities. They give more, and they decide to give more 
quickly when presented with this kind of opportunity.
    Third and finally, our donors have consistently stressed to 
us that they do not want their philanthropy to substitute for 
the fundamental obligation of Congress to fund its national 
parks, the operations in particular. So, as we consider 
worthwhile mechanisms in legislation like this to establish new 
funding, please do not forget about the importance of the 
annual appropriations that are essential to our park's 
operation.
    At Acadia, frankly, I feel like we are losing ground. Folks 
mentioned earlier some of the statistics. We basically have the 
same operating appropriation today that we did 7 years ago in 
2009. What that means is we are losing ground, because 
visitation is increasing, public expectation for what the park 
will provide is increasing, and the cost of doing business is 
increasing--so we are losing ground.
    Acadia is a small park by Western standards; it is about 
35,000 acres. But we have more than 2\1/2\ million visitors at 
our park. Visitation was up last year by 13 percent. This year 
it is up another 7 percent to date. As I said, people's 
expectations for what the park provides are also growing. The 
park is a huge economic driver in our communities on the Maine 
coast: more than 3,000 jobs and more than $200 million of 
economic activity is annually generated by Acadia.
    As you know, $10 million was appropriated by Congress last 
year for a version of a Centennial Challenge. At Acadia, we had 
three projects that were funded by that, a total of about 
$165,000. We were able to restore historic trails, and we were 
able to reclaim scenic vistas from carriage roads and motor 
roads that had grown in and been lost over time. In each case, 
Friends of Acadia provided the private match to match the 
Federal funding in that regard; and in each case the challenge 
component was essential to our ability to raise that money.
    In one case, one family had a strong feeling about a 
certain trail; they wrote the whole check. In another case, we 
did a campaign, had dozens of donors give very quickly in order 
to be part of the Centennial Challenge. So, it worked.
    A couple of things to keep in mind, going forward, for how 
to make sure this legislation accomplishes what you are hoping. 
It is very important to have a sustainable source of funding, 
so I commend you for including the funding sources that are not 
appropriations. It is very hard to respond to this kind of 
challenge if you do not know that it is coming. And that is 
some feedback I have heard from other partners around the 
country.
    Second, I would encourage you to consider building in more 
flexibility for groups like Friends of Acadia to actually 
implement some of the signature projects. I think that our 
groups have shown, as has the National Park Foundation, that 
private partners like ours can really provide nimbleness, 
creativity, and flexibility. So having all of the signature 
projects implemented by the Park Service may be something you 
reconsider and have partners have more of a role in that.
    In closing, I just want to add a footnote that Acadia 
National Park also celebrates its centennial in 2016, so we 
have a dual centennial. There is no substitute for getting out 
in the parks and seeing the work we are doing. I invite any of 
you to come up to Acadia to see what we are doing for the 
centennial in 2016.
    Thank you again for your work on this important Act. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. MacDonald follows:]
 Prepared Statement of David MacDonald, President, Friends of Acadia, 
                           Bar Harbor, Maine
    Chairman McClintock, Ranking Member Tsongas, and other honorable 
members of this committee, thank you for the opportunity to be part of 
today's discussion regarding the proposed legislation, which I believe 
is an exciting development and a very positive step toward sustainable 
funding for our national parks in the coming centennial year and well 
into the future.
    My name is David MacDonald and I have lived most of my life on 
Mount Desert Island, Maine, home to Acadia National Park. I currently 
serve as President and CEO of Friends of Acadia (FOA), a private, not-
for-profit organization with more than 4,000 members that has worked in 
close partnership with the National Park Service since our founding in 
1986. Our members love Acadia and are proud to give back to the park 
through our organization with philanthropic donations and thousands of 
hours of volunteer work.
    One recent example from just last month is our annual Take Pride in 
Acadia community work-day, when more than 400 volunteers turned out to 
help rake leaves from the drainage ditches of Acadia's carriage roads, 
and help park staff put these historically significant roads to bed for 
the winter. This one morning of volunteer labor saves the park tens of 
thousands of dollars in labor and many times that if preventative 
maintenance did not help avoid the very costly storm damage and winter 
washouts that have taken a heavy toll on these gravel roads in the 
past.
    So although Acadia is relatively quiet this time of year compared 
to summer or fall, the work of protecting this park continues round the 
clock and throughout the year, and FOA is very honored to be part of 
the partnership that accomplishes this work which has helped inspire 
some amazing accolades of late for our park, including readers of USA 
Today voting Acadia America's Best National Park last year, as well as 
viewers of Good Morning America voting Acadia America's Favorite Place.
    While I hope that my role here today will be to help provide some 
tangible and specific recent examples from the ``front lines'' of a 
park like Acadia of how a centennial matching program like the proposed 
Centennial Challenge Fund would inspire additional philanthropy and 
accomplish priority projects, I would also like to stress three broader 
messages that I hope Acadia's on-the-ground projects convey:

  1.  First, national parks are incredibly powerful settings that truly 
            represent our country at its best and have the ability to 
            inspire those who experience them to donate toward their 
            maintenance and improvement. And at Acadia we are finding 
            that the Centennial, in particular, is resonating as an 
            opportunity for residents and visitors to be part of this 
            historic parks legacy.

  2.  Second, it has been my experience that donors absolutely respond 
            to the opportunity of a challenge grant and matching 
            funding. FOA supporters ranging from the very large, 
            sophisticated donors to those sending a $35 check as an 
            annual membership donation like to see their dollars 
            stretched and leveraged.

  3.  Third, throughout our 30-year history of doing this kind of work 
            at Acadia, donors have consistently stressed that they do 
            not want their contribution to become a substitute for the 
            Federal Government itself continuing to invest in national 
            parks. So as you pursue worthwhile legislation like this to 
            create new revenue, please do not forget the critical 
            importance of the fundamental congressional appropriations 
            that are essential to maintaining these national treasures 
            unimpaired for future generations to enjoy.

    Acadia National Park is a conservation gem and economic powerhouse 
that I am honored to serve. Relatively small in size, at only 35,000 
acres, Acadia is within a day's drive of major cities of the Northeast 
and therefore is one of the most heavily used parks in the Nation, with 
more than 2.6 million visitors each year. Visitation has been growing 
steadily in recent years, up 13 percent last year and another 7 percent 
so far this year.
    At the same time that the number of visits is growing, so is the 
range of services and experiences sought at a park like Acadia. Whether 
it is Internet connectivity, or search and rescue operations, or 
accommodation of activities like paddle-boarding or mountain-biking 
that Acadia's founders could not have even dreamed of, the public is 
asking more of a park like Acadia than ever before. Local businesses in 
the surrounding communities also see their livelihoods closely tied to 
the park's successful operations; during the government shutdown two 
Octobers ago, our communities lost more than $1 million per day in 
economic activity. Many of my friends and peers are among the 
restaurant owners, guides, and shopkeepers who make up some of the 
3,000 jobs and $200 million of annual economic benefit driven by Acadia 
National Park.
    Acadia was also the first national park created entirely through 
private donations of land from neighboring landowners, when visionaries 
such as George B. Dorr and John D. Rockefeller Jr. and dozens of others 
assembled strategic tracts of land with bold Atlantic coastline, 
mountain-tops, remote ponds, and pristine woodlands and granted them to 
the Federal Government nearly 100 years ago. Indeed, there is a very 
long history of private initiative, philanthropy, community pride and 
investment, and volunteerism in our park--as these very principles will 
be essential to our ability to prepare the park for its second century.
    As you know, an initial phase of a centennial challenge program was 
approved and funded by Congress last year. $10 million was made 
available, and despite the very short notice and call for proposals for 
FY 2015, FOA and our partners at Acadia National Park submitted six 
projects. Three of them were ultimately selected to be among the 106 
proposals funded nationwide that together involved 90 different partner 
organizations contributing nearly $16 million in private matching 
funds. These significant investments in our parks were stitched 
together with barely more than a couple of weeks' notice. In looking at 
your proposed NPS Centennial Act, I believe that the number of 
projects, the amount of match, and the impact of the projects could all 
be enhanced with the benefit of a reliable, established program with 
lead time and dependable funding. Thank you for considering ongoing 
funding sources that will help keep this model from being a one-shot 
deal in the centennial year only.
    At Acadia, we were able to tackle a variety of projects that were 
part of the park's maintenance backlog, but also provided tremendous 
opportunity for visitor engagement and public benefit. The largest 
project involved the restoration of historic scenic vistas from the 
park carriage roads and motor roads that had grown in with vegetation 
over time. Careful planning and documentation was done to understand 
the original scope and purpose of the vistas as planned by noted 
landscape architects Beatrix Farrand and Frederick Law Olmsted nearly a 
century ago. Skilled park sawyers were complemented by citizen 
volunteers willing to drag brush up to the chipping operation at the 
roadside. Certain plots were selected for small experimental burns 
thought to be more effective for some vegetation, and interpretive 
panels engaged the public in the purpose and methods of the project.
    To come up with our $85,000 share of the match for this project, 
given the short notice of the opportunity in the spring, FOA quickly 
decided to draw on existing reserve funds, with the hope of 
replenishing them with new donations raised over the course of the 
summer. This strategy paid off when by August we had raised more than 
50 gifts toward the project ranging in size from $35 to $75,000 and 
shattering our $85,000 goal. I am confident that the fact that we were 
able to tell donors that the Federal Government was matching us dollar 
for dollar made all the difference in motivating the number and scale 
of donations we received in such a short time.
    Another centennial project at Acadia involved the rehabilitation of 
the Deer Brook Trail, an extremely popular hiking trail that runs west 
from Jordan Pond up toward the summits of Sargent Mountain and 
Penobscot Mountain. The trail had become severely eroded, diminishing 
both the hiking experience and the environmental health of Deer Brook 
as it cascades down the mountains toward Jordan Pond, one of the 
clearest ponds in the state of Maine and which serves as the public 
drinking water supply for the village of Seal Harbor. In this case, we 
had been in discussions for quite some time with a family that had 
expressed interest in seeing this trail repaired. After making an 
initial donation 2 years ago, the family was reluctant to fund further 
work unless the Park Service itself had ``skin in the game.'' When we 
let this family know of our ability to propose the trail work as a 
Centennial project earlier this year, this spurred them to pledge a 
second gift of $70,000 to cover the private portion of the project. The 
work that was done this summer involved park trail crews, volunteers, 
as well as local teens hired on to the Acadia Youth Conservation Corps, 
a joint program of FOA and the Park Service that allows us to hire 15 
high school students each summer to tackle ambitious work projects, 
while also providing the kids with opportunities to learn about and 
connect with their park.
    These recent Centennial Challenge projects build on a long history 
at Acadia of blending private philanthropy with Federal dollars to 
benefit the park and its visitors. In the early 1990s we undertook a 
public-private partnership to restore Acadia's 45-mile network of 
gravel carriage roads following decades of government neglect. We 
worked with Congress to commit $6 million of Federal appropriations 
while agreeing to raise $4 million in private contributions that would 
serve as a permanent endowment held at Friends of Acadia to ensure 
continued maintenance of the roads over the long term. Friends of 
Acadia annually grants funds to Acadia under the terms of a Memorandum 
of Understanding regarding the endowment, which has helped spin off a 
total of more than $5 million since its establishment. So I endorse the 
concept in your bill of an endowment at the National Park Foundation, 
as this is a tool that has helped greatly at Acadia in smoothing out 
the inevitable peaks and valleys of annual funding cycles.
    A decade later, Friends of Acadia undertook another campaign that 
similarly matched private donations with public funds to help restore 
and endow the maintenance of Acadia's historic hiking trail system. 
This time, the government's share came largely from revenue collected 
at Acadia through visitor entrance fees (and I know that your committee 
has recently taken up important work to reauthorize the Federal Lands 
Recreation Enhancement Act). This campaign went on to be a model for 
other parks and Friends groups around the country. Yet I don't believe 
that it would have been possible if we had not been able to tell our 
private donors that the Federal Government was coming to the table with 
a significant investment in the project.
    All of us at Friends of Acadia are proud of our long history and 
strong partnership with the Park Service, however we are also firm in 
our conviction that we, the people of the United States, through our 
Federal Government, have a perpetual responsibility to assure the 
conservation of Acadia unimpaired for the enjoyment of future 
generations. Private philanthropy has a critical role to play in the 
future of our parks, but there are limits to that role. Friends of 
Acadia works hard to add value to our national parks rather than fund 
core operations, which are ultimately the responsibility of Congress.
    At Acadia, it is alarming to realize that despite the park's 
growing visitation, popularity, and expectations from the public, the 
congressional appropriation for park operations last year was basically 
the same as it was in 2009. Given the rising cost of doing business, 
this flat funding has meant that park staffing has inevitably taken the 
hit, and Acadia has fewer FTEs than it did 7 years ago. On top of that, 
a growing percentage of these FTEs now consist of seasonal hires, who 
while very important to visitor services, cannot be expected to tackle 
the longer-term planning and prioritizing needed to prepare the park 
for its second century. Viewed at the national level, there has been a 
12 percent decrease or $370 million reduction in the total budget for 
the National Park Service over the last 5 years in today's dollars.
    The concept of a centennial challenge fund has been discussed since 
at least 2007. Now is the time to build upon lessons learned from the 
past efforts and to create an opportunity for Congress and private 
partners to design a fund that will inspire private donors to look 
invest in the Park Service's second century. In particular, we 
encourage a program that would be inclusive of a wide array of possible 
ways to give, and as you look to finalize this discussion draft, I am 
interested in working with other partners and colleagues to discuss how 
the Centennial Challenge Fund might be strengthened and further 
leveraged by enabling Friends groups like FOA to directly implement 
signature projects and programs. Friends of Acadia and other groups 
like us around the country have shown that partners to the Park Service 
can provide critical flexibility, innovation, cost effectiveness, and a 
trusted broker for donors wanting to add to our national parks legacy. 
Of course, we see this at the national level with an organization like 
the National Park Foundation's great work. And in light of my previous 
comments about the importance of congressional appropriations to 
support park operations, I would urge each of you to remember that 
legislation such as that proposed today should be providing 
sustainable, supplemental funding for parks, not funds that would be 
considered a substitution for funds lost as part of sequestration or 
shrinking park appropriations.
    With 2016 just a few weeks off, it is important to note that Acadia 
National Park shares that same centennial year with the broader 
National Park Service (NPS). In fact, President Woodrow Wilson signed 
the legislation authorizing Federal protection of the initial lands 
within Acadia on July 8 just a few weeks before he signed the Organic 
Act establishing the NPS at the end of August, 1916. We are certainly 
prepared and motivated to bring our best thinking and resources to bear 
to ensure that Acadia's second century is launched with the same level 
of inspiration and leadership exhibited by the park's founders 100 
years ago. We are working together with more than 220 centennial 
partners from throughout the community--businesses, schools, libraries, 
art galleries, museums, gardens and more--each of whom will embody our 
centennial slogan which is ``celebrate our past and inspire our 
future.''
    I greatly appreciate the opportunity to share testimony with your 
committee today, and hope that you will not hesitate to let me know if 
I can assist with follow up questions or suggestions. And in 
conclusion, I invite each of you to pay us a visit at Acadia during the 
coming centennial year, when you will find a community-driven, world-
welcoming celebration of our park unfolding all year long. I know that 
members of Maine's congressional delegation including Congresswoman 
Pingree and Congressman Poliquin would be glad to join me in helping to 
host you or your staff in experiencing Acadia first-hand. In the 
meantime, thank you for your work on the National Park Service 
Centennial Act.

                                 ______
                                 

    Mr. McClintock. Thank you very much.
    Finally, we welcome back Mr. John Nau with the National 
Park Foundation from Houston, Texas to testify.

   STATEMENT OF JOHN L. NAU, III, VICE CHAIRMAN (2012-2013), 
            NATIONAL PARK FOUNDATION, HOUSTON, TEXAS

    Mr. Nau. Thank you, Chairman Bishop, Ranking Member 
Grijalva, Chairman McClintock, Ranking Member Tsongas, and 
members of the subcommittee. Thank you very much for the 
opportunity to testify before you today regarding Chairman 
Bishop's draft, the ``National Park Service Centennial Act.'' I 
believe that my background as a businessman who has had the 
opportunity to experience how parks can serve as economic 
drivers is what best positions me to assist the subcommittee as 
you consider legislative proposals to enhance the National Park 
System for another century of service.
    The National Park Foundation is the congressionally-
authorized charitable nonprofit charged with securing 
philanthropic and corporate support for national parks projects 
and programs, and I am proud to be a member of that board. In 
that capacity, the Foundation has a great deal invested in 
ensuring that the Centennial of the Service will be a catalyst 
for many steps necessary to prepare our parks for another 
century of success.
    The Centennial represents a once-in-a-lifetime opportunity 
for Americans of all ages, races, location, genders, including 
Members of Congress, to unite behind a shared vision for 
building upon the success of the National Park System during 
its second century. Realizing this goal will require us to 
generate innovative new approaches to improve visitor 
experience and create a much better funding model to support 
our parks.
    We believe that the draft legislation the subcommittee is 
considering today has the potential to serve as that 
galvanizing mechanism needed to achieve that goal, and I am 
pleased to appear before you not only to offer the Foundation's 
strong support for this discussion draft, but to share 
recommendations we have for improvements.
    The Foundation strongly supports the proposed authorization 
of a Centennial Challenge Fund, which would be paired with 
dedicated funding and require a non-Federal match. The 
Centennial Challenge would create a strong incentive for 
increased philanthropic contributions to park programs and 
projects leading up to, during, and beyond the year of the 
centennial.
    In addition, the Foundation supports the proposed long-
overdue increase in the purchase price of the senior citizen 
lifetime pass as a way to help pay for this important program. 
We would welcome an opportunity to work with the members of 
this subcommittee and your staff to identify additional offsets 
that can be utilized to increase the funding for the Centennial 
Challenge.
    The Foundation strongly supports the proposed authorization 
of an endowment housed in the Foundation. Establishing this 
long-term funding source would allow the Foundation to raise 
significantly more private funding for park projects and 
programs as part of donors' estate and philanthropic 
contribution planning.
    The Foundation also supports the establishment of overnight 
fees as a mechanism to provide funding for the endowment, and 
we would welcome an opportunity to work with you, your staff, 
and other interested parties to refine this proposal in a 
manner that can garner universal support within the final 
legislation.
    As with the Centennial Challenge, we would welcome the 
opportunity to work with the members of this subcommittee and 
the staff to identify any additional offsets that can be 
utilized to increase funding availability.
    We also strongly support the draft legislation's inclusion 
of amendments to the NPF charter that would transition the 
Secretary of the Interior and the Director of the National Park 
Service to ex officio, non-voting members.
    The Foundation also supports the discussion draft's 
authorization of $25 million to be appropriated each year over 
the course of 10 years to the Foundation to be used for 
important projects.
    In conclusion, the National Park Service Centennial is not 
official until 2016. But our Find Your Park program of public 
engagement has already begun. Visitation is up, particularly in 
the big parks, and the program has only begun to be effective.
    We thank the committee, the Chairmen, and the Ranking 
Members for their work. The Foundation stands behind the effort 
to improve the National Park Service over the next 100 years. 
Thank you.
    [The prepared statement of Mr. Nau follows:]
 Prepared Statement of John L. Nau, III, President & CEO, Silver Eagle 
  Distributors, Board Member, National Park Foundation, Houston, Texas
    Chairman McClintock, Ranking Member Tsongas and members of the 
subcommittee, I appreciate the opportunity to testify before you today 
regarding Chairman Bishop's draft National Parks Centennial Anniversary 
legislation. I have been a member of the National Park Foundation's 
Board of Directors for more than 7 years and I served as Vice-Chairman 
of the Board, the highest ranking private citizen position, from 2012-
2013. Additionally, I am the Chairman Emeritus of the Civil War Trust 
and I also had the honor of serving as the Chairman of the President's 
Advisory Council on Historic Preservation from 2002-2009. I believe 
that my background as a businessman, who has had the opportunity to 
experience how parks can serve as economic drivers beyond their 
borders, is what best positions me to assist the subcommittee as you 
legislate vital enhancements to the National Park System for another 
century of service.
    Chartered by Congress in 1967, the National Park Foundation is 
founded on a legacy that began more than a century ago, when private 
citizens from all walks of life took action to establish and protect 
our national parks. Today, the National Park Foundation carries on that 
tradition as the national charitable nonprofit whose sole mission is to 
directly support the National Park Service.
    2016 will mark the 100th anniversary of the National Park Service. 
The Centennial represents a `once in a lifetime' opportunity for 
Americans to come together to celebrate the achievements that have been 
realized as the result of ``America's Best Idea.'' Most importantly, 
the anniversary presents an opportunity for Americans of all ages, 
races, genders, ethnicities and political affiliations to unite behind 
a shared vision for building upon the success of the National Park 
System during its second century. This is our opportunity to both 
celebrate the past and look to the future.
    In addition to celebrating past accomplishments and reconnecting 
Americans to their parks, the Centennial Anniversary presents an 
opportunity to generate innovative new approaches to improve the 
visitor experience and create a better funding model to support our 
parks. We believe that the draft legislation you are considering today 
has the potential to serve as the galvanizing mechanism needed to 
achieve that goal.
    That is why I am pleased to appear before you to testify on behalf 
of the National Park Foundation to offer our strong support for this 
draft legislation. I will also share recommendations we have for 
improvements to it.
                          centennial challenge
    The Foundation strongly supports the discussion draft's 
authorization of a Centennial Challenge fund paired with `dedicated' 
funding. Enactment of these provisions, which would require a non-
Federal match, would undoubtedly create a strong incentive for 
increased philanthropic contributions to park programs and projects 
leading up to, during and beyond the year of the Centennial Anniversary 
in 2016.
    In addition, the Foundation supports the proposed overdue increase 
in the purchase price of the ``senior citizen lifetime pass'' as a way 
to help pay for this important program. The Foundation and its staff 
would welcome the opportunity to work with members of the subcommittee 
and your staff to identify additional offsets that can be utilized to 
increase the funding available for the Centennial Challenge.
                             npf endowment
    We strongly support the proposed authorization of an endowment 
housed at the Foundation, which will establish a long-term funding 
source for important park projects and programs. The endowment will 
allow the Foundation to raise significantly more private funding for 
the parks as part of donors' estate planning and gift giving. Endowment 
growth serves to build a stable long-term source of private resources 
for Parks.
    The Foundation supports the establishment of `bed fees' as a 
mechanism to provide funding for the endowment. Currently, at many 
Parks, guests at hotels located within the boundaries of national parks 
do not pay the hotel occupancy taxes paid by park visitors staying 
outside the boundaries. This represents a lost opportunity to capture 
fees hotel guests are already accustomed to paying for the benefit of 
the parks. That said, we look forward to working with members of the 
committee and your staff and other interested parties to include in the 
legislation some accommodation to address the collection and 
administration of these fees.
    Finally, we would welcome the opportunity to work with members of 
the subcommittee and your staff to identify additional offsets that can 
be utilized to increase the funding available for this important 
endowment.
                       park foundation structure
    The Foundation strongly supports the draft legislation's inclusion 
of amendments to the NPF charter that would transition the Secretary of 
the Interior and the Director of the National Park Service to ex 
officio, non-voting members of the National Board of Directors. The 
Foundation's authorizing legislation names the Secretary of the 
Interior as the Chair of the NPF Board and the Director of the National 
Park Service as the Secretary of the NPF Board. As with any cabinet 
position, the Secretary of the Interior is a job that has turnover due 
to national elections and other factors. History has shown that a 
change in administration occasionally leads to a change in NPF 
leadership. The resulting uncertainty can be avoided by allowing the 
board to select its own leadership.
    The Foundation also supports the discussion draft's authorization 
of $25 million to be appropriated each year, over the course of 10 
years, to the NPF to be utilized to match non-Federal contributions for 
park projects and programs. This would result in a significant increase 
in the leveraging of private funds to benefit parks and visitors 
similar to the successful model set forth in the charter of the 
National Fish and Wildlife Foundation.
                      education and interpretation
    The Foundation also supports efforts that would diversify, 
strengthen and enhance interpretive programs in our national parks 
while also expanding the role of volunteers in these programs. In 
particular, it is our hope that these provisions will help generate 
meaningful new ways to engage Americans that historically have low park 
visitation rates, such as Hispanics, urban dwellers and Millennials. 
This will require modernizing the technology used to recruit new 
visitors so that we can reach them through social media and wherever 
else we need to go to engage them. In addition, we need to work harder 
to engage urban populations by better highlighting the many wonderful 
urban parks already in existence.
                               conclusion
    As the National Parks Centennial Anniversary approaches, it is 
truly inspiring to see a diverse and bipartisan coalition of lawmakers, 
nonprofit organizations, businesses and individuals uniting behind a 
shared commitment to seizing the historic opportunity presented by the 
Centennial Anniversary to develop and execute innovative new approaches 
that will ensure that our national parks achieve another century of 
success.
    While Federal appropriations should remain the largest funding 
source for the National Park Service, it is unlikely that current 
Federal budget constraints will be reversed or even alleviated in the 
near future. Therefore, it is imperative that we utilize the 2016 
Centennial to explore new funding models that can be utilized to 
supplement the taxpayer investments needed to prepare and sustainably 
fund our parks for another 100 years of service. Without enhancements 
and improvements we risk a first-time visit to a national park becoming 
a one-time visit instead of a life-long love for these amazing places.
    This new paradigm must include finding new ways to incentivize even 
greater philanthropic and corporate investments in our parks going 
forward. That said, it is vital that our emerging coalition works 
together over the next 15 months to seek the appropriate balance 
between the need to avoid overcommercialization and the need to enhance 
and expand attribution for desperately needed corporate investments in 
our parks.
    We must see supporting our parks not as just the role of taxpayers 
and Congress or just private citizens or foundations. We must see it as 
working together in concert to support our parks with Federal funds, 
private philanthropy, corporate partnerships, fees and volunteerism.
    The Centennial of the National Park Service comes around only once 
and the focus of millions of Americans will be on our national parks 
between now and the end of 2016. We have a tremendous opportunity to 
capitalize on this momentum and excitement to help prepare the National 
Park Service for a second century of success. This will require that we 
place our political and philosophical differences aside to work jointly 
on behalf of future generations so that they too can experience and 
realize the many benefits of ``America's Best Idea'' as we have.
    In closing, the National Park Foundation believes that the 
Chairman's discussion draft National Park Service Centennial Act is an 
outstanding step toward achieving the goals I have outlined today. We 
look forward to working with the entire committee and the rest of our 
emerging coalition to continue refining and ultimately enacting this 
vitally important legislation. Thank you for the opportunity to provide 
this testimony.

                                 ______
                                 

    Mr. McClintock. Great. Thank you for your testimony. We 
will now go to questions by the Members, and we will begin with 
myself.
    I first want to get the record straight on National Park 
Service funding, because that has been mentioned on a number of 
occasions at a number of hearings. Over the past 10 years, the 
nominal appropriation for NPS has grown from $2.256 billion in 
Fiscal Year 2006 to $2.615 billion in Fiscal Year 2015. That is 
a $359 million increase.
    Inflation adjusted, though, the Park Service budget has 
been relatively flat, actually down about two-tenths of 1 
percent over that decade. But this followed the prior decade, 
where nominal funding increased by 65 percent. There was also 
one year--in 2009, in a single year, the Park Service's budget 
increased by 37 percent.
    Funding is an issue which this bill seeks to address, but 
is not in and of itself explanatory for the enormous deferred 
maintenance backlog that has developed, and the decline in 
overnight stays at our parks.
    Mr. Jarvis, my first question involves the deferred 
maintenance backlog. Last year's National Defense Authorization 
Act included several new park units for the National Park 
Service to manage. It seems every year this committee receives 
requests to designate new national parks or national monuments 
to be managed by your agency. Do these new units add to your 
maintenance backlog? And how do you allocate resources to these 
areas when you are, at least inflation-adjusted, at a 
relatively flat budget?
    Mr. Jarvis. Thank you for that question, Chairman. I think 
it is a very important area to explore.
    Yes, they do add to our maintenance backlog, though we try 
our best when working with Congress in the establishment of any 
new units to minimize our additional responsibilities through 
partnerships. For instance, the designation of the Manhattan 
Project National Historic Park is in partnership with the 
Department of Energy; and even though there are specific assets 
identified within that park that were established by Congress, 
we are working very closely with the Department of Energy to 
ensure that very few of those assets become a liability for our 
maintenance backlog.
    But, they are not free. Each one of these new parks that 
come into the system do have some responsibilities, both from 
an operational standpoint and a maintenance backlog standpoint. 
But, I can assure you we are working very, very hard to 
minimize the amount of new responsibilities that come with 
these new areas.
    Mr. McClintock. Thank you. We have heard a number of 
retailers would like to sell national park passes, just as, for 
example, grocery stores provide postal services now at their 
facilities. Why are annual and daily passes for the national 
parks so difficult to purchase, except at the park itself? And 
why won't the Park Service consider these types of cooperative 
arrangements with retailers?
    Mr. Jarvis. We are exploring some new ways--technically and 
legally, you can do third-party sales. The problem is that 
whoever the third party is has to buy the passes, because they 
are essentially valued property, rather than us just 
authorizing their sale. But we are looking at new models, and 
we have a couple of experiments--Acadia being one of those--
about mobile passes and other ways that we can use technology.
    Mr. McClintock. Well, my experience is a lot of the 
retailers at the gateway communities know as much or more about 
the parks than the park rangers themselves. A park ranger from 
Hawaii assigned to Yosemite does not know nearly as much about 
Yosemite as someone who grew up there going to the park every 
weekend for years. Those are the folks that are employed in the 
local shops. It seems to me that that is an enormous resource 
that we are simply squandering.
    Mr. Jarvis. I think the gateway communities are 
extraordinarily important to these parks. One of the areas that 
we have really expanded on that is a huge opportunity is the 
concept of step-on interpretation, where locals basically can 
provide that kind of interpretation locally within the park. 
Our battlefield guides are a great example of that, at 
Gettysburg, Antietam, and Manassas, where local community 
members that live in that community are Civil War buffs.
    Mr. McClintock. I am going to have to cut you off, because 
I want to get one more question in. It is about a complaint we 
are receiving a lot of, and that is the policy of individual 
parks to ban bottled water. As you can imagine, there are a lot 
of complaints on that.
    What is the justification for that, particularly when you 
can buy soda in a can, you just cannot buy bottled water?
    Mr. Jarvis. The justification is sort of threefold. One is, 
first of all, it is not just an open ban. There are about 20 
parks out of the 409 that currently have water bottle bans in 
place. So it is not broad across the system.
    Mr. McClintock. My time is up. But just so you know, it is 
a growing source of complaints, and I would strongly advise you 
to do something about that.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman; and thank you all for 
being here. I think, from all of your testimonies, especially 
Mr. MacDonald and Mr. Nau--and I think Director Jarvis knows 
this well--that the impact of our national parks is really 
clear. And this was perhaps never more clear than when the 
government shutdown occurred. Mr. MacDonald, I think you 
referenced the cost to the gateway communities as a result of 
it in your written testimony.
    Our national parks are a great investment. Each Federal 
dollar invested in these parks generates $10 in economic 
activity. It is a tremendous return on investment to our local 
economies. But despite this economic impact, we have been 
chronically underfunding our parks, leading to a growing 
backlog of maintenance and infrastructure needs, as we all 
know.
    I know all the members of the committee are very concerned 
about this. It amounts to $11.5 billion in deferred maintenance 
costs. So today, as we consider the Centennial, I think we have 
to take into account the impact of those billions of dollars in 
deferred maintenance, and how best to address it.
    I would like to share a slide that demonstrates the serious 
decline in funding for the National Park Service construction 
account.
    [Slide]
    Ms. Tsongas. As the slide demonstrates, the construction 
account, which is the primary account to address the non-roads 
half of the maintenance backlog, has gone from over $350 
million in Fiscal Year 2005 to less than $150 million in Fiscal 
Year 2015. This is roughly a 62 percent decrease over the last 
10 years--fairly dramatic, I would say.
    I think it shows us what the smoking gun is, what the real 
impact has been on our national parks as a struggle to deal 
with this maintenance backlog.
    Director Jarvis, can you talk about why the backlog has 
grown so large? And do you feel that the discussion draft 
before us today can provide enough funding to make a 
significant dent in the backlog?
    Mr. Jarvis. Thank you, Congresswoman. So the maintenance 
backlog has grown because the National Park Service has, in 
terms of assets--we have road assets and non-road assets. In 
terms of physical facilities that we manage and maintain, we 
are second only to the Department of Defense in total 
facilities. And those facilities provide access and public 
enjoyment across the 409 national park units.
    The infrastructure is quite old. Most of it was built turn-
of-the-century, particularly in the 1960s, when there was a 
major investment in the National Park System with Mission 66. 
Those systems--wastewater, water treatment, sewer systems, 
buildings, infrastructure--are all now pushing 50, 60 years 
old.
    We have a very good inventory of our system. We know every 
asset, its current condition, and what it is going to take. We 
need, basically, twice as much money as we currently have in 
our construction program to just keep even with the current 
backlog.
    The construction budget--you are spot on there--has several 
other sources. Our recreation fee program, what we call the 
repair/rehab program, goes into the non-road assets. And then, 
of course, Congress is working on a transportation bill that 
has some road money for us, as well.
    But, in the Administration's bill, which requests $300 
million in Title III for 3 years in a row, if we were to 
receive that funding for 10 years in a row, we could bring the 
non-road high-priority assets across the entire system, about 
6,000 assets, to good condition.
    Ms. Tsongas. I actually have a follow-on graph that I 
wanted to show.
    [Slide]
    Ms. Tsongas. The top piece of it shows the discussion draft 
before us. And, thankfully, it is important that we begin this 
discussion and the kind of investment that would be made in the 
maintenance backlog.
    Then, the second piece of it shows what would be the 
investment that would be made under H.R. 3556, Mr. Grijalva's 
bill.
    The next piece shows the annual minimum required to 
maintain the current levels.
    Then the bottom piece just shows the total maintenance 
backlog that has accumulated over time.
    So, Director Jarvis, again, how better could we help you 
address this?
    Mr. Jarvis. Well, I think it is----
    Ms. Tsongas. A leading question, I know.
    Mr. Jarvis. That is OK. I think the maintenance backlog has 
to be addressed in a number of ways.
    One, there are projects that you can raise private dollars 
to support. We have a subset of those, and we work with our 
Friends organization and the National Park Foundation to 
leverage some Federal skin in the game against philanthropy.
    Then, there are projects that are purely a Federal 
responsibility. No one is going to give me philanthropy to fix 
a wastewater treatment plant. That is a Federal responsibility. 
So, these cycle through in need and investment. Unless we put 
up the money now, it is pay-me-later, as well, this backlog 
will grow faster than we are investing in it.
    Mr. McClintock. Thank you.
    Ms. Tsongas. Thank you, Director Jarvis.
    Mr. McClintock. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Director Jarvis, you mentioned in your last statement it 
would take two times the money to just keep even with the 
backlog. Can you explain that a little more?
    Mr. Jarvis. Roughly, to keep even with our current backlog, 
we would need about $800 million annually to address the non-
road maintenance backlog. We currently, through Fiscal Year 
2015, receive just a little bit over $400 million annually for 
non-road assets. So we would need about twice that, or $800 
million.
    So, we parse that into the non-road, high-priority assets. 
High-priority assets are the ones that directly serve the 
public; they are the historic homes that are the principal 
reason the park exists, or a road or trail that provides access 
to an asset. We would need to get annual appropriations in 
addition to what our current is, at least what has been 
requested in the Administration's bill, which is $300 million 
per year.
    Mrs. Lummis. Can you provide some examples of how the 
Centennial Challenge Fund would enable the National Park 
Service to tackle portions of that maintenance backlog through 
the partnership entities?
    Mr. Jarvis. Absolutely, Congresswoman. David MacDonald 
mentioned a few projects in Acadia. I can absolutely provide 
the committee a full list of the kinds of projects that we have 
leveraged through the recent $10 million Centennial program.
    But, for instance, on the Blue Ridge Parkway, we have done 
trails for accessibility. We have done preservation of 
projects: Cape Cod National Seashore, we did some of the 
historic buildings; we have done rehab at Cemetery Ridge at 
Gettysburg; the Grand Canyon rehab; and a variety of trails.
    Some of the larger projects: Grand Teton, in your home 
state; working on historic CCC projects that were built 75 
years ago; and Great Smokey Mountains, increasing trail access. 
A big project here in the Chairman's district and Yosemite 
National Park is rehabilitating the Mariposa Grove. It is a 
project where the Federal share was about $1.1 million; and the 
partner, Yosemite Conservancy, has put up $1.8 million. So, we 
are getting a major restoration at the Mariposa Grove.
    We literally have hundreds of projects where a one-to-one 
match has actually been leveraged more than one-to-one by our 
partners across the system.
    Mrs. Lummis. Most of us are aware that, when the national 
parks began, it was the railroads who frequently built the 
beautiful facilities in these parks. So, the parks were founded 
with a long-standing history of public-private partnerships. 
And working with concessionaires, clearly, the railroads had 
skin in the game when it came to getting visitors out to the 
national parks.
    Do you have the authority you need to work with 
concessionaires to address the deferred maintenance backlog, 
and to help underwrite rehabilitation and replacement, or even 
expansion of some of the visitors infrastructure?
    Mr. Jarvis. Not really. Let me, if you don't mind, take a 
minute to talk about the current relationship with our 
concessioners.
    First of all, we have great concessioners. The companies 
that we work with provide extraordinarily great service to the 
American public. Congress reformed the concessions law in 1995. 
We went to a new concessions law, and it did several positive 
things. One, is it increased competition; it resulted in an 
increase of the franchise fees back to the National Park 
Service, to the Federal Government, that we could reinvest in 
facilities.
    But, there are a couple of issues that I think continue to 
be a problem. We have proposed, in the Administration's bill, a 
new authority called the Visitor Services Management Authority, 
that would allow us to at least experiment with being more 
consistent with private sector practices for lodging and food 
services than we currently have under the concessions law.
    The real issue is this thing called leaseholder surrender 
interest that, under current concessions law, when a 
concessioner invests in a facility that is owned by the 
National Park Service to significantly improve it, to meet 
expectations of current visitors, that investment grows over 
the life of the contract. So, at the end of the contract, we 
owe the concessioner that value that it has grown.
    In the example of the Grand Canyon contract most recently 
re-competed, we owed the concessioner $150 million, in spite of 
the fact that they were making a profit throughout that period.
    Mr. McClintock. The gentlelady's----
    Mrs. Lummis. Yes, my time has expired.
    Mr. Jarvis. OK.
    Mrs. Lummis. But I would mention that he volunteered to 
give us a list of those items, and I would like to ask for 
that.
    Mr. Jarvis. Absolutely.
    Mrs. Lummis. Thank you, Director.
    Mr. McClintock. Ms. Dingell.
    Mrs. Dingell. I want to continue to follow on your line of 
questioning, because I share that concern. I thank you for your 
recognition, Mr. Chairman.
    Next year, we are approaching an important anniversary, the 
100th anniversary of the National Park Service, which we have 
been talking about. For me, and for all of us, it is a time to 
celebrate the successful track record the NPS has had managing 
some of the most beautiful, iconic places in our Nation, 
including Sleeping Bear Dunes, the Pictured Rocks National 
Lakeshore, the River Raisin National Battlefield, et cetera.
    But, I think it is also an opportunity to give the Park 
Service the resources and authorities that they need to do 
their job in the 21st century. I do not think we should let 
this opportunity pass by. So, I want to talk about some of the 
differences in the discussion draft we are considering today 
and the Ranking Member's legislation.
    Mr. Nau, why is it important to legislatively establish an 
endowment and provide a source of funding beyond those 
individual contributions?
    And, to continue along the lines of Mrs. Lummis, the 
Ranking Member's bill included a section that establishes the 
National Park Service's Visitor Service Management Program. It 
would provide the National Park Service with the authority to 
offer new types of concession contracts to run facilities like 
hotels and restaurants. I think it sounds like an idea worth 
looking into, and it is not included in the discussion draft. 
Could you talk more about that, as well, building on what you 
were talking about?
    Mr. Nau. I can only address the issue of the endowment. If 
the endowment had been formed back on the 50th anniversary, we 
would probably be dealing with close to $1 billion, given the 
track record of many institutions, including major and small 
universities.
    We are about ready to have the Baby Boomer generation 
engage in long-standing estate planning. If we have a mechanism 
to engage that level of giving and philanthropy, it needs to 
come through an endowment. If I am going to provide that kind 
of substantial gift, I am going to want to know that it is 
going to perpetuate itself. Over a 20-year period, that is an 8 
percent return a year, with a spending rate of probably 4\1/2\-
5, 5\1/2\ percent. If that money were here, the Park Service, 
working with the Foundation, could probably have $250-$500 
million a year in additional funding for programs and other 
areas of addressing the visitor experience.
    We have talked a lot here about the backlog. I think we 
also need to focus on the visitor experience of the target 
generations and demographics that are not currently visiting 
the parks: Millennials, Hispanic immigrants, and urban 
dwellers. That is what the Find Your Park program is all about, 
and that is what it targets.
    Now, I cannot speak to the concessions question, ma'am.
    Mrs. Dingell. OK.
    Mr. Nau. I would have to defer to John.
    Mrs. Dingell. I think that these public-private 
partnerships really are the wave of the future. We are not 
going to have enough time, we only have a minute and 17 
seconds. So, if you could continue to build on that; and, like 
my colleague, Mrs. Lummis, I would like to follow up on these 
after today with more questions.
    Mr. Jarvis. I do think that public-private partnerships are 
the key. We really need and support the private sector to 
provide these kinds of services in the national parks. And the 
Visitor Services Management Authority, which is in the 
Administration's bill, would give us a broad range of 
flexibility to try new tools that could result in significant 
improvement in investment in these facilities, to upgrade them, 
as well as the potential for bundling projects, commercial 
facilities, together to make them more attractive to the 
private sector, as well.
    I think that what we are asking for is essentially a new 
set of authorities to work more closely with the private 
sector.
    Mrs. Dingell. Thank you. I guess I will yield back my 23 
seconds.
    Mr. McClintock. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the witnesses for being here today.
    Mr. MacDonald, I was reading your testimony, where you 
mentioned the recent community work day that attracted over 400 
volunteers to help restore roads in Acadia. I think they were 
cleaning out ditches and doing other activities. It reminded me 
of work that volunteers in my district have done on both the 
Buffalo National River and Hot Springs National Park.
    What more can be done by the National Park Service to 
galvanize this type of volunteerism and community engagement?
    Mr. MacDonald. Thank you for the question. It has been an 
important part of our organization since its founding. We were 
founded by volunteers who wanted to give back more time.
    I think what is most meaningful to a lot of our volunteers 
is to work side by side with park staff. They take great pride 
in being alongside someone with a uniform, or someone who is 
working for these parks. They really want to see the parks well 
taken care of, well funded.
    I think that there should be greater authorities to partner 
with organizations that can provide more flexibility and 
nimbleness. Sometimes it is unbelievable the number of forms 
you have to sign to volunteer in your park. So, partnering with 
the nonprofits makes it easier for folks to give back.
    But I think most of our volunteers at Acadia just want to 
see the park well taken care of, well staffed, and feel good 
about their investment of volunteer time.
    Mr. Westerman. You mentioned that projects were undertaken 
to reduce the maintenance backlog, but they also created a 
``tremendous opportunity for visitor engagement and public 
benefit.'' What impact do you believe the maintenance backlog 
has had on the visitor experience and recreation opportunities 
in Acadia National Park? I know maintenance backlogs are an 
issue with all of our parks.
    Mr. MacDonald. In terms of the visitor experience, I would 
say the biggest impact is, as John mentioned, outdated 
facilities. Our visitor center at Acadia does come from that 
Mission 66 era. It is drastically undersized. It is hard to 
heat, it is hard to cool. It is inadequate for the 2.5 million 
visitors we get a year.
    We have worked over the years to structure some of these 
public-private partnerships. Through endowments formed at 
Friends of Acadia, we have been able to address some of the 
backlog on iconic things, like trails and carriage roads, as 
you were mentioning. Some maintenance is sexy, and donors are 
proud to give to it; others are not. In terms of the visitor 
experience now, I would say it is the visitor center that is 
the primary hole; and the Park Service just does not even have 
that on the near horizon, to be able to repair that and keep it 
up.
    Mr. Westerman. Following up on that, what do you think 
about trails maintenance and maybe vegetation management? What 
would you be able to complete with new money from the 
Centennial Challenge Fund?
    Mr. MacDonald. Well, it would be wonderful to be able to 
plan for this kind of funding. I mean, again, this year we had 
to respond within a matter of a couple of weeks to the 
opportunity to compete for this $10 million. We landed $165,000 
in Acadia. That was very helpful. We matched it and doubled it. 
That repaired less than a mile of a historic trail. It helped 
us restore a handful of scenic vistas. I mean this work is 
resource-intensive.
    So, if this were a reliable source of funding, year in and 
year out, we would be able to work with the Park Service to 
program this out and plan for it, and begin to bring down that 
backlog. Certainly, the Centennial Challenge Fund is not going 
to solve it, but it is an important supplementary tool to help 
add to philanthropy and help add to the kind of funding that I 
hope would come from the construction fund.
    Mr. Westerman. Director Jarvis, I was on a flight one time 
and I sat by a lady from Coca-Cola that ran an active trails 
grants program. I did not know about it before then. I know 
there has been a question about public and private 
partnerships, but what are you doing specifically with the 
National Park Foundation to engage corporate partners in the 
Centennial celebrations?
    Mr. Jarvis. Thank you for that question. I think we are in 
a totally new place than we have been, probably for decades, in 
working directly with corporate sponsorships, with the National 
Park Foundation, with the leadership of Mr. Nau, and Will 
Shafroth, the CEO at the Foundation.
    We have partnerships with Subaru, Disney, Budweiser, and 
American Express. We have new partnerships on the horizon, 
folks from major corporations like Red Bull and AirBNB coming 
in the door now to partner with the National Park Service, to 
help spread the word of Find Your Park, and support specific 
projects, like volunteerism.
    Mr. McClintock. Great, thank you.
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair; and thank you to our 
witnesses for being here today. I also was very encouraged to 
see this, the National Park Service Centennial bill, the draft 
proposal that was put forth by Chairman Bishop, really begin to 
help the NPS address the challenges of the next 100 years. I 
really hope that the Majority works with the Minority on this 
bill to make what is now a good bill an even better bill, as 
they have begun to do already, as we have worked on other 
issues.
    I also want to compliment, a little bit off the topic, the 
Majority for working with me and my staff on the BLM 
Foundation, which has a special mission we put in to clean up 
abandoned mines, as Mr. Hice has advocated for, and we are very 
pleased with them picking that up and wanting to work with us 
on it.
    I want to continue on the discussion that has been raised 
by a number of people on our side of the aisle, which really 
talks about the stark differences in the funding levels. We 
have this tremendous range of potential in the draft versus the 
proposal that was put forth by Ranking Member Grijalva, in what 
the Park Service says it needs, and the levels that are 
actually provided in Chairman Bishop's bill. I know it is a 
draft proposal, and we are having that discussion. For me, it 
is really important to understand what that means, in terms of 
the actual backlog.
    I know we have touched on this, Director Jarvis, but I 
would like to know if we end up with the low end, in terms of 
the funding, what are you going to prioritize? What would be 
included in specific projects if we had more robust funding? 
And, could you explain to us a little bit about how you arrive 
at those priorities?
    Mr. Jarvis. The priorities are driven by life, health, and 
safety, at the very top of our priority list. We are in a 
triage situation, essentially, about what our priorities are 
with the current level of instruction and repair/rehab funding. 
We go for the facilities that are high-priority assets. Those 
are the ones that are either of high historical significance, 
and/or directly related to the visitor experience. Those get 
the funding. Everything else goes into, essentially, almost a 
benign neglect status.
    Then, we go in and Band-Aid for a facility. In the roads 
category, a perfect example is Memorial Bridge, right here in 
Washington, DC. We are Band-Aiding the Memorial Bridge, knowing 
that we will have a $250 million bill at some point to repair 
the Memorial Bridge. So, that is the kind of triage that we are 
going through right now.
    Dr. Lowenthal. In this discussion, it is really important 
for us to understand, and that is why I am glad you testified, 
just exactly what are the implications.
    I think all of us agree to the overall concept. Now, the 
question is how do we fund it, and how to identify what is the 
appropriate level. I think that is the discussion, and it is 
very, very important for us to have that discussion. Thank you, 
and I yield back.
    Mr. McClintock. Great, thank you.
    Mr. Hice.
    Dr. Hice. Thank you very much, Mr. Chairman. I really 
appreciate the opportunity for this hearing on the ``National 
Park Service Centennial Act,'' proposed by Chairman Bishop, and 
I want to thank each of our witnesses for being here.
    Mr. Nau, I would like to direct my questions to you. Can 
you tell me specifically what the role is of the National Park 
Foundation in the Centennial?
    Mr. Nau. The Foundation was enacted back in 1966, and we 
function as the 501(c)(3) to raise funding. Over the first 45 
years, it has been pretty much philanthropy-driven. Through 
Director Jarvis' leadership, and the leadership of the Board of 
the Foundation, we have been able to expand into corporate 
partnerships and have increased the philanthropy. We work with 
the Park Service to address programmatic needs, and begin to 
deal with enhancing the visitor experience.
    Corporate funding, right now, is at about $45 million in 
2015 and projected into 2016 is $45 million, plus what comes in 
the door in the future that did not exist just 12 months ago.
    Dr. Hice. So there is a good relationship between you and 
the Park Service? You are working well together?
    Mr. Nau. Absolutely.
    Dr. Hice. And I appreciate Mr. Westerman mentioning, and 
Director Jarvis, as well, the various corporations that are 
coming on board in an attempt to put together a public and 
private partnership. I understand that Coca-Cola Corporation is 
a major leader in that. And, of course, we are exceedingly 
honored to have Coca-Cola in my home state of Georgia; their 
leadership in so many ways has just been spectacular, and 
donating over $1 million a year to the Foundation, as well, is 
tremendous.
    But I want to jump on Director Jarvis' comments, and to 
you, Mr. Nau, are there incentives to attract more corporations 
to come on board?
    Mr. Nau. The incentives are the visitors. If you go back 
and look at what I would consider to be the traditional funding 
model, Federal funding, a little bit of philanthropy, what we 
are all addressing here today is what is the new funding model, 
going forward? The government has to be in--there has to be 
some philanthropy, there needs to be increased volunteerism, 
and the last one is corporate engagement. With the hundreds of 
thousands and millions of visitors that flow through these 
iconic parks, corporate America, particularly those that deal 
with consumer goods, are logical partners. And, as we have gone 
out to talk to them, they have responded tremendously.
    I want to address one issue that has always come up. 
Corporate America wants recognition, but they do not want to 
overstate it within a park--be subtle. They do not want to be 
the ones to have pushback for too much recognition within a 
park. Again, I will say to Director Jarvis and the Service that 
the recognition that they have authorized in the parks right 
now with our sponsors helps us go out to other sponsors. 
Corporate America is going to be there, now that they know the 
Service would be a good partner for them.
    Dr. Hice. You mentioned in your testimony that some people 
are concerned with the over-commercialization within some of 
the parks. Is there a way, as you just brought up, to 
tastefully recognize the corporations without overstepping the 
line of being overly commercialized? And, does this bill hit 
the balance?
    Mr. Nau. Yes. On the balance issue, the answer is yes.
    Dr. Hice. OK.
    Mr. Nau. The governor there is not just the Park Service, 
it is the corporations. We do not want to overstate. If you go 
into many of the parks today, you will see signage on Find Your 
Park. Along the bottom are corporate logos, recognizing those 
partners that are engaged. That is all we want. That is all the 
recognition that corporations have asked for. So, there is a 
really good partnership dynamic going on.
    Dr. Hice. Thank you very much. Mr. Chairman, I will yield 
back with the comment that, with Coca-Cola's leadership, I 
encourage everyone to go drink a Coke today.
    [Laughter.]
    Dr. Hice. Thank you, and I yield back.
    Mr. McClintock. Thank you. Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman, for this important 
hearing. And thanks to our witnesses for the great work that 
you do for one of the great American institutions.
    Mr. Jarvis, as we think about the Centennial Challenge, I 
know that Congress appropriated $10 million in Fiscal Year 2015 
for the Challenge. I wonder if you could tell us at what level 
the private sector responded and matched that investment.
    Mr. Jarvis. Way more than one-to-one. I think it turned out 
to be about almost one-to-two, in terms of the private sector 
match with these projects.
    Mr. Huffman. All right. If we were to go big, let's say if 
that amount were raised to $100 million a year, do you think 
there is enough interest from the private sector to match that 
level of investment by the Federal Government?
    Mr. Jarvis. Absolutely. If you remember in 2008, Secretary 
Kempthorne asked Congress for funding for a similar centennial 
challenge, and we were able to receive pledges of over $200 
million from the private sector and partners across the system 
to match a Federal match.
    Mr. Huffman. I would like to ask the same question to Mr. 
Nau.
    In your opinion, do you think there is enough private 
interest in matching at the $100 million level?
    Mr. Nau. Short answer, absolutely. And, it is not just from 
corporations. It is going to come from individual and corporate 
philanthropy. As soon as that world knows that the Federal 
Government has skin in the game, it is going to open up doors, 
philanthropic and corporate giving, that we have not touched 
before.
    Mr. Huffman. All right. Thank you.
    Director Jarvis, I want to ask you about high-speed 
broadband access as part of this important milestone for the 
Park Service. I know that you intend to install public Wi-Fi in 
visitor centers over the next year. That is a great step. Are 
there other goals that the Park Service has established for 
connectivity? And, I am wondering if there is a national or a 
park-specific planning process underway for that.
    I am also, more specifically, curious about how our parks 
support the President's and Congress' vision of broadband 
deployment and access. And I mean not just getting our parks 
connected, I mean possibly using parks as anchors in remote 
rural areas to connect entire communities, or neighboring 
Federal agencies, or Federal health centers--lots of folks who, 
under the current system, are sort of siloed, sometimes each of 
them entering into their own contracts with telecoms for T1 
lines at exorbitant rates, when right next door to them is 
another Federal facility or other facility that could be part 
of a regional consortium.
    So, I am wondering if the Park Service is thinking 
creatively about breaking down those silos. I learned in a 
meeting a couple of weeks ago that there may be government 
contracting rules that prohibit the Park Service from bidding 
fiber contracts as part of a broader consortium, even with 
other Federal agencies, which makes no sense whatsoever to me.
    I am curious about your thoughts on how we can not only get 
our parks connected, but really get our rural areas and other 
facilities, including Federal ones, connected as part of a 
cooperative effort.
    Mr. Jarvis. I thank you for that question. Absolutely, we 
have both a goal and a plan to go forward to get connectivity 
into the primary visitor use areas of our national parks, with 
the target market being the Millennials. If they do not have 
connectivity, they are not going to come. I mean that is kind 
of our assessment.
    We view that connectivity as an enhancement to the 
experience, not a substitute. So, at visitor centers, hotels, 
primary visitor use areas, we hope to build this kind of 
connectivity; and we are going to need to do it in partnership 
with communities, with the telecom industry, to drive these in. 
Often, we are at the tail end of miles of a single copper line. 
Recently we did a project, worked with some of our 
concessioners to look at satellite uplink in partnership with 
them to provide broadband access within concession facilities, 
as well.
    I am unfamiliar with where there may be conflicts here, but 
that is definitely something I will be glad to look into to 
make sure that we can work collaboratively with the other 
agencies and the private sector in some of these more remote 
locations.
    Mr. Huffman. Great, I would love to work with you on that. 
Thank you. I yield back, Mr. Chairman.
    Mr. McClintock. Thank you. Mr. Hardy.
    Mr. Hardy. Thank you, Mr. Chairman. I would like to thank 
Chairman Bishop for putting this draft bill forward. I think it 
helps us usher in the next century of national parks.
    My district is home to some of the most distinctive units 
of the National Park System, including the Great Basin National 
Park, Death Valley National Park, as well as Lake Mead National 
Recreation Area, and the Tule Springs Fossil Beds National 
Monument. Together, those all generated about 5 million 
tourists last year.
    First, a quick question that I came up with after listening 
for a minute, 5 million folks go to those parks, when Las Vegas 
itself had over 41 million visitors last year. We have dozens 
of other parks within a 100-mile radius of the Las Vegas area.
    Mr. Nau, I would ask you, are 5 million folks a reasonable 
amount of people that should be using the parks, when you have 
41 million visitors that close? You have Zion's National Park, 
the Grand Canyon National Park, and Bryce Canyon National Park, 
along with others. Is there an avenue there that we can 
continue to work on this?
    Mr. Nau. Well, the numbers you are telling me, we have 
about a 12 percent penetration of visitors. I do not know what 
the specific standard ought to be. But the Find Your Park 
program is targeting the numbers that you just laid out. We 
want to be able to communicate with people and invite them to 
go to the parks.
    Now, in this particular case, partnering with the hotel/
motel association, the casino association in Vegas, and have 
them become that local partner to help communicate Find Your 
Park and address the idea of people going out to the dam, to 
the parks, on day trips, that is what the next generation of 
visitors are going to experience. These 3- and 4-hour day trips 
are what is going to drive Director Jarvis' numbers up.
    So, the Foundation could go to Las Vegas, work with the 
hotel/motel association, and invite them to become a local 
partner. That is the way you are going to communicate with 
those visitors.
    Mr. Hardy. Yes. The Las Vegas Valley, in the past, it used 
to be about $.70 on every dollar was for gaming. Las Vegas has 
had to completely reinvent itself over the last 15 years. It is 
now less than $.40 on the dollar for gaming; they are trying to 
bring people for shows and other activities. So, I think there 
is a real opportunity here, especially with as many parks as we 
have within that area.
    Mr. Nau. Afterwards could I get the name of that convention 
and visitor's director? And we will approach them.
    Mr. Hardy. Thank you. In my district, the Great Basin 
National Park has made efforts to reach out and expose new 
generations of Nevadans to our national treasures by bringing 
children from Title I schools from Clark County into the park 
and spending several days of experiencing the vast expanses of 
these one-of-a-kind landscapes. These students participate in 
the junior ranger program, and film short videos to be included 
in the capsule commemorating the 30th anniversary of the Great 
Basin National Park and the Park Service for their Centennial.
    Great Basin is also partnering with Death Valley and the 
Joshua Tree National Park to feature videos amongst our 
Nation's darkest areas, and you can see the Milky Way and other 
things out in that area.
    With that being said, there is this collaboration with the 
fourth grade students and trying to give them free access. 
There are over 25,000 fourth graders in the Las Vegas Valley, 
and the Las Vegas Review Journal just reported only a couple 
hundred people have signed up for that program in the first 
quarter. Could you tell me, Director Jarvis, how this program 
is working over the rest of the country?
    Mr. Jarvis. It is the first year of the program. I do not 
have the hard statistics off the top of my head now. At one 
point, we felt that we had about 900,000 downloads. There are 
roughly 4 million fourth graders in the Nation today. Our goal 
is to reach them all with the Every Kid in a Park voucher, 
which gives them free access to all parks and public lands for 
them and their family.
    So, if you think of them as sort of a target market, we 
want to connect these kids to the outdoors through this pass. 
The National Park Foundation is key to this, in that they are 
raising the funding for transportation grants to the schools, 
so the kids can have a bus driver, a docent, and a substitute 
teacher to get out there, as well. It is a partnership program, 
and I think we are just sort of beginning to penetrate the 
broader school community around this.
    We are not going to get them all this year, but our goal is 
to do this many years in a row.
    Mr. McClintock. Thank you.
    Mr. Hardy. I know my time is up, but just one comment. 
These urban areas, and you cannot get more urban than Las 
Vegas, are the diverse areas that we need to bring people back 
to the parks. This is an important step that we have to take to 
get those young people out there. Thank you.
    Mr. McClintock. Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman; and thank you all very 
much for being with us today.
    Director Jarvis, we have heard a lot this year on this 
committee about the $11 billion infrastructure backlog for the 
National Park Service. It has come up again and again, 
especially in light of the context of, do we spend more money 
for land acquisition when we have this $11 billion backlog?
    And, when you drill down, we find that roughly half of it 
is related to highways and other specific transportation 
infrastructure. The good news is that it looks like we are 
going to have a 5-year highway bill before we leave, the 
longest since 2005, with new funds. How much will this new 
highway bill affect your transportation backlog?
    Mr. Jarvis. The transportation bill, as I understand it, 
that came out of conference has a National Park Service 
allocation of $268 million for Fiscal Year 2016. That is going 
to grow to $300 million in Fiscal Year 2020, which is a little 
bit more than we sort of currently have in our transportation 
program.
    The good news, though, is it did create a major 
infrastructure competitive program of which the National Park 
Service will be able to compete for large infrastructure 
projects. The Memorial Bridge is an example of a project that 
could cost $250 million. That would take our entire annual 
allocation for one project.
    So, this is a good thing. We could certainly use more, but 
we feel wonderfully happy that the Congress has moved on a 
transportation bill, and we can plan out for 5 years on our 
road projects.
    Mr. Beyer. Since you brought it up, Mr. Director, Arlington 
Memorial Bridge has two of the six lanes closed right now, the 
number-one access into Washington, DC. How are we making 
progress on those specific two-lane closures?
    Mr. Jarvis. We have a project underway right now. It is a 
temporary fix. I commute across that bridge, too, so I know the 
backup of the traffic there every day. And I cannot give you a 
timeline; I will be glad to get back to you on when we expect 
to have those two lanes back open. But keep in mind this is 
only a temporary fix to the bridge.
    Mr. Beyer. Great. Thank you very much. This bill increases 
the age applicable for the Public Land Corps from 25 to 30. Can 
you explain why that is? And should we have an exception for 
the under-30-year-old veterans coming back?
    Mr. Jarvis. There are two aspects to the Public Land Corps: 
there is the age increase, and also the longer timeline. So, it 
goes from 120 days to 2 years that would make them 
noncompetitively eligible for Federal jobs.
    A significant number of veterans are also in this program, 
and we have a number of initiatives that we work with Defense, 
Wounded Warriors, and others, to be able to reach vets as 
employees of the National Park Service, as well. So, they would 
be eligible under this.
    The key is to give them a little bit longer time to achieve 
a Federal job, and we love hiring out of this program. The 
combination of increasing the age and going from 120 days to 2 
years will allow us to really tap veterans, and the next 
generation, as new employees in the Service.
    Mr. Beyer. I agree, thank you. One last question--in 
looking at the differences between Ranking Member Grijalva's 
bill and our Chairman's bill, one of the differences is in 
Title I, where the Grijalva bill talked about the Centennial 
Declaration giving the Park Service responsibility not just for 
the system, but for financial and technical assistance to 
states, communities, and individuals to protect our national 
heritage.
    Do you see that as an important part of the mission, going 
forward, or is it OK to omit that?
    Mr. Jarvis. I think it is a really important component. 
Over the 100-year life of the National Park Service, Congress 
has given the Park Service a variety of new responsibilities 
that really have nothing to do with the 409 units of the 
National Park System.
    For instance, we manage the National Historic Landmarks 
Program, and the National Register of Historic Places Program. 
We do not manage those facilities, we do not provide them any 
funding, but we do the recognition. By recognizing that they 
are also part of the American story, this is what this 
Centennial Declaration does. It says all the things that you do 
combine to help America celebrate who we are, as a Nation.
    Mr. Beyer. Great. Thank you, Director Jarvis.
    Mr. Chair, I yield back.
    Mr. McClintock. Mr. LaHood.
    Mr. LaHood. Thank you, Mr. Chairman; and I thank the 
witnesses for being here.
    Director Jarvis, I have three sons that are 13, 11, and 9. 
We have been to Disney World and done that experience in the 
last 5 years, enjoyed that, and kind of saw how that process 
worked. But we have also done a number of trips to national 
parks. We have been to the north rim of the Grand Canyon and 
did a backpacking trip there, we did a fishing trip at Isle 
Royale, and we have also been to the Alaska Basin in the Teton 
National Park.
    In comparing those experiences over the last 5 or 6 years 
with my sons, and looking at the technology and the apps that 
were used at Disney World, that technology increased the 
experience and the efficiency of that visit in everything from 
entering the park, tracking your location, charging food and 
water, and getting information in an effective and efficient 
way.
    Looking at the statistics--Walt Disney World, in 1987, had 
26 million visitors; this year they are going to have 50.1 
million. They have doubled in size. I think there is a direct 
correlation between technology and apps and the efficiency of 
information. I compare that to our national parks and my own 
experience there, and how we can improve that.
    I know you talked about connectivity, and I think that is 
part of it. But technology has to be a part of that, whether 
that is waiting in line for your entrance fee, getting 
supplies, campsite rentals, and lots of other issues that you 
can use to make that experience better with technology.
    I know you have talked a little bit about that, but what 
specifically can we do to improve that? Because I think that 
issue has to be addressed if we want to improve our visitation.
    Mr. Jarvis. I could not agree more. And I think your kids 
are a perfect example of this new generation that expects to be 
able to have that kind of access, to pay with their phones, to 
go a little deeper in.
    The Park Service has a lot of content. We have a lot of 
stuff. We have a lot of stories. We have fantastic experiences. 
And probably, for our first 100 years, we have provided that as 
an authentic kind of experience. I think, with this next 
generation, we have to provide a technological aspect to that, 
as well. But to be very blunt about it, we are in a triage 
situation, as we have indicated here, from an operational 
budget standpoint and from an infrastructure standpoint. These 
kinds of things take money to invest in.
    Now, we do have, in some cases, partnerships with the 
private sector, particularly corporate, who are interested in 
developing apps for us. One of them most recently was American 
Express, who is developing an app about volunteerism, where an 
individual can download the app and then basically participate 
as a volunteer, and then become incentivized, shall we say, to 
volunteer in their own services, as well.
    What we have been trying to do is to build the content, and 
then ask the private sector to step up in developing the 
software, the applications, the user interfaces with our 
content, because, frankly, it is not our expertise to do that.
    Mr. LaHood. Is there currently an application process out 
there? Are you entertaining from different technology companies 
somebody that can take over this process and get it going?
    Mr. Jarvis. It is more on the individual, park by park, 
basis. For instance, here on the National Mall there was 
private sector development of Mall applications for tourism. 
There were applications during the civil rights marches. It is 
not centralized.
    Mr. LaHood. Is it your thought that it is more efficient to 
do it that way, with each individual park doing it? Or is it 
better to do it in a more centralized approach throughout the 
Park Service?
    Mr. Jarvis. I have never found anything centralized back 
here to be very efficient, to be blunt about it.
    [Laughter.]
    Mr. LaHood. I guess what I am saying is if you gave it to a 
private company to outsource that and run that for the entire 
Park Service, they could give you a good idea on that. Correct?
    Mr. Jarvis. We have been, through the National Park 
Foundation, talking to Google, Facebook, and some of the other 
big social media organizations around these kinds of ideas. 
But, so far, we have not found sort of the right fit for this, 
Service-wide.
    Mr. LaHood. Last question, just switching subjects on the 
transportation bill. In terms of money, if and when this bill 
passes and gets signed by the President, has that been 
prioritized within the Park Service on where that is going to 
be spent?
    Mr. Jarvis. Yes, sir, we----
    Mr. McClintock. That is going to need to be a yes-or-no 
answer.
    Mr. Jarvis. Yes.
    [Laughter.]
    Mr. McClintock. Thank you.
    Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman, for holding this 
hearing. Such a good topic. And thank you to each of our 
witnesses for your testimony.
    My district, in the central coast of California, is home to 
some very beautiful landscapes. We all claim the fame of our 
areas that we represent. These landscapes that I represent 
stretch from the coastal mountains and the Carrizo Plain 
National Monument onshore to some very spectacular beaches 
along the coast.
    We have the Channel Islands as the jewel, and Channel 
Islands National Park, which has been designated now for 35 
years as a national park. It continues to attract visitors from 
all around the world. It is known as the Galapagos Islands of 
North America. It has preserved both the unique natural and 
cultural resources found within its borders, and ensured access 
for over 11 million visitors since its establishment. Each 
year, these visitors contribute tens of millions of dollars to 
our local economy, and support hundreds of jobs.
    And, while visitors come to the Channel Islands for all 
sorts of reasons, there is a dedicated group that chooses to 
give back to the islands by volunteering. These volunteers 
staff the visitor center, provide interpretation in the park, 
and conduct trail maintenance and preservation activities. I 
want to talk with a couple of you about our volunteers.
    I know my experience in my district is not unique. National 
parks across the country are so invaluable to their local 
communities, and dedicated volunteers provide similar services 
that I have described in probably each of our national parks.
    Director Jarvis, can you explain the importance of 
volunteers to the National Park Service? About how many did you 
have in 2015, if you have an idea? And why does the 
authorization cap of $3.5 million need to be removed?
    Mr. Jarvis. Thank you, Congresswoman, for that question. We 
could not provide the services and the quality of work to the 
American public through our national parks without our 
volunteers. It would absolutely be impossible. We have an 
extraordinary army of volunteers out there. This year we have 
set a new record. We had 440,000 volunteers.
    Mrs. Capps. Wow.
    Mr. Jarvis. We had set the goal to raise it significantly 
from what the previous year was, at 300,000. So we have gone 
140,000 over our 300,000.
    In the discussion draft, and in the Administration's bill, 
we are requesting the cap, which is currently under the 
appropriations bill, of $5 million. Under authorization, it is 
$3.5 million, but it was increased in the appropriations bill 
to $5 million. We would like to have that cap removed, because 
that puts a ceiling on the amount of dollars that we can spend 
on supporting our volunteers.
    The volunteers, depending on where you work, roughly cost 
the Park Service about $10 to $20 a piece to really support. 
They are not free, but they are quite inexpensive to support. 
And, the return we get is in the hundreds and hundreds of 
millions of dollars of support, of direct work in our parks.
    Mrs. Capps. Thank you very much.
    Mr. MacDonald, you are the Executive Director of Friends of 
Acadia, a specific national park on the East Coast, or in 
Maine. I would imagine you know a thing or two about the 
importance of volunteers in your park. How do they assist in 
Acadia National Park?
    Mr. MacDonald. Thank you for recognizing this important 
role that they play. They assist in a number of ways. We have a 
program that is fairly unique; we call it our Drop-In Program. 
It is on Tuesdays, Thursdays, and Saturdays. If you are 
visiting Acadia with your family, you can drop in to volunteer. 
A lot of them are one-time volunteers, but that is over 3,000 
hours a year, from the drop-ins.
    We also have a dedicated corps of folks that this is just 
what they do. This is their job, almost. It is where they live, 
and it is their love. After all, the parks belong to them. They 
do not belong to the Service, the Service is managing them. The 
volunteers represent that ethic of ownership, investment, and 
pride in the parks. It is how we were founded. It is still a 
very important program. Friends of Acadia provides some funding 
to match what the Park Service can do with a volunteer 
coordinator. So, it is another version of a public-private 
partnership up in Acadia.
    Mrs. Capps. Thank you. Just a real brief point, because my 
colleague asked about the Public Lands Corps Act, and he 
mentioned veterans and the role that they play.
    Director Jarvis, can you say just a word about its ability 
to diversify your future work force?
    Mr. Jarvis. Absolutely.
    Mr. McClintock. The operative term being ``a word.''
    Mrs. Capps. A word.
    Mr. Jarvis. Yes.
    [Laughter.]
    Mr. Jarvis. We are growing a new generation of supporters 
that represent the diversity of the Nation.
    Mr. McClintock. Thank you.
    Chairman Bishop.
    Mr. Bishop. Mr. Nau, I appreciate your input and being 
here. You have mentioned in your testimony the support of the 
discussion draft that would establish overnight fees at lodging 
within the park boundaries.
    In your mind, does that level the playing field between 
lodgings inside and outside, or does it skew it?
    Mr. Nau. I do not know if it would ``level the field'' on 
individual parks, but it is going to get it a lot closer. 
Whether it is the town, the county, or the state, they all have 
overnight fees called hot taxes.
    Mr. Bishop. OK.
    Mr. Nau. And I believe, from a businessman's perspective, 
those private sector investments are at a disadvantage, 
compared to the concessionaires that are not required to charge 
any kind of fee. They are exempted.
    Mr. Bishop. So, the Foundation would not see this as 
punitive to the lodging concessionaires?
    Mr. Nau. Not at all. No, sir. I do not believe the 
businesses and communities would, either.
    Mr. Bishop. Let me hit you up on the Second Century 
Endowment concept. Is this important, that it is seeded with 
new fees? I mean why shouldn't we just fund it with 
philanthropic donations?
    Mr. Nau. The donor community, in this case, people that I 
interact with and my own family, when we are going to invest 
philanthropically, I want to know that the owner or the manager 
has skin in the game. It is critical, I believe, to the donor 
community, as they estate plan over the next 20 years, that 
there be skin in the game from the Federal Government. This is 
one way to get it done.
    Mr. Bishop. That also hits up to the point of the idea that 
the Board of Directors of the Foundation would be in charge of 
investments with these funds. As the Board is presently 
constituted, is it chosen for its financial management 
expertise? And how do you ensure that these funds are going to 
be managed properly on behalf of the American people, going 
forward?
    Mr. Nau. Great question. I have had the honor of serving on 
boards, in universities and the private sector. And those that 
have endowments do, in fact, have an investment committee, and 
you look to recruit people with that expertise. Since we have 
not had it yet, there has not been a focus on recruitment of 
investment managers.
    The irony of it is that, of the board right now, we have 
three of them. So, we could get into investment oversight. But, 
I would also say that no foundation board is going to manage 
its own investments. You are going to go out and hire an 
investment manager, and your board members, or the oversight 
committee, is going to work with that investment manager.
    Mr. Bishop. So, there would need to be changes to the 
charter of the Foundation. And, can only Congress do that?
    Mr. Nau. Mr. Chairman, I do not know that it would require 
a change. A good board would see to it, itself. I do not know 
of any board on which I have been involved where it is 
required. I mean it is just good management, that you would 
have an investment oversight committee.
    Mr. Bishop. Can I just ask you--for battlefields, in which 
you have a passion and a concern, what apps have you been using 
on the battlefield?
    Mr. Nau. Well, I really appreciate the issue. I believe the 
private sector, over development, is important. But right now 
is a bridge. 501(c)(3)'s can do it. I do not know if David's 
group has done one in Acadia, but the Civil War Trust has done 
one for almost all of the Civil War battlefields for the 
National Park Service. Local Friends groups have the capacity 
and the knowledge to create them. So, that is an easy way to 
bridge it.
    Mr. Bishop. I appreciate that. As you can see, I am not a 
Millennial, and I really don't care.
    [Laughter.]
    Mr. Bishop. I just don't give a damn. But I am happy that 
somebody is working on that.
    Let me say two last things. Director Jarvis, the 
Subcommittee Chair mentioned the issue of bottled water. Please 
do not overlook that. The ability of banning bottled water by 
allowing Gatorade and Coke cans and all the other stuff in 
there, it does not make a whole lot of sense, and it does not 
deem well for what we are looking at in the future. That is an 
issue you have to look at. I am sorry, this is silly.
    Second, for the future, as we go forward with this, we are 
looking for ideas for this particular bill. Please do not give 
me any ideas that would require an offset, because I cannot 
find them. But any other ideas would be extremely helpful, and 
I would appreciate that.
    I yield back; and I apologize, I am going to have to leave 
right now.
    Mr. McClintock. Mr. Gohmert.
    Mr. Gohmert. Thank you, and I appreciate the witnesses 
being here, all of you, and your testimony.
    Director Jarvis, earlier, to a question on this year's 
appropriations in the transportation bill, I understood you to 
say that the amount in the transportation bill is more than we 
``sort of currently have.'' I was wondering what you meant by 
``sort of currently have.''
    Mr. Jarvis. It is basically about $15 million more 
annually, if I remember correctly, than we currently get out of 
the transportation program.
    Mr. Gohmert. Than you currently get?
    Mr. Jarvis. Yes.
    Mr. Gohmert. OK, you just threw me with ``sort of have.''
    Mr. Jarvis. Yes, but it is not a whole lot.
    Mr. Gohmert. I was not sure what that meant. OK. Do you 
know yet how much was spent in September and October of 2013 in 
renting or purchasing barricades and closing down all the 
facilities that the Park Service closed down?
    Mr. Jarvis. No, sir, I do not know that number.
    Mr. Gohmert. Mr. Nau, it is good to have you back again. I 
was curious, with your experience on the Park Board, are a 
board or board members allowed to reach out for corporate 
sponsors, or is that something that is exclusively left to the 
Park Service itself? How does that reach-out occur?
    Mr. Nau. Actually, it is the contrary. It is not the Park 
Service, it is the Foundation.
    Mr. Gohmert. The Foundation.
    Mr. Nau. Both the staff and individual board members reach 
out. For example, I reached out to Anheuser-Busch and to a 
couple of the others with whom we are still negotiating. So, it 
is going to be the private sector, through the Foundation 
Board, working with the Service. But the initial contact, in 
most cases, is coming from the Foundation.
    Mr. Gohmert. Well, I enjoy good apps. I am wondering if 
there is room for sponsors that would provide those apps. Is 
the Park Service director equipped adequately to provide those 
kind of apps, or is it just the Foundation that will be doing 
that?
    Mr. Nau. I would look at it near term, and then long term. 
Near term, Friends groups and others like the Civil War Trust 
can create a fundamental, basic app to help the visitor 
understand what they are experiencing. Long term, I believe it 
will require the Service and the Foundation to identify the 
large private sector people that are going to be able to come 
in, improve the connection, the connectivity, and, at the same 
time, provide the type of apps that will appeal to these 
Millennials. But right now, it is Friends groups and others 
that are creating these apps.
    Mr. Gohmert. OK. Well, again, thank you for being here. 
Thanks for the work you do.
    I was curious, Mr. MacDonald, are there apps that have been 
provided for your park?
    Mr. MacDonald. Yes, there are a couple that have come out 
of the private sector. Friends of Acadia is a resource and a 
partner for those private companies.
    Mr. Gohmert. When you say partner, how are they partnered?
    Mr. MacDonald. Well, they look to us for some of the 
content. They donate some of the proceeds back to the park. So, 
it is housed in the private sector, but very much a partnership 
with the Park Service and the Friends group.
    Mr. Gohmert. So are those apps purchased?
    Mr. MacDonald. No, they are free.
    Mr. Gohmert. They are free. So then the proceeds come from 
advertising?
    Mr. MacDonald. Correct.
    Mr. Gohmert. OK, all right. Well, thank you all very much.
    Mr. McClintock. Thank you. We are going to do one quick 
bonus round of questions, and I want to start with Director 
Jarvis.
    Regarding the Centennial Challenge, could you give us some 
examples of projects that might be funded by that program?
    Mr. Jarvis. What we have been trying to do with the 
Centennial Challenge Fund is to spread it broadly across the 
system. It can be a range from very small projects in the 
$10,000, $5,000 range, to multi-million-dollar projects.
    Just from a process standpoint, we do a call out to the 
field. We put priorities on the maintenance backlog and on 
projects that help reduce the backlog, particularly projects 
that relate to connecting the next generation involving 
volunteers and youth. So, we sort of set a screen on that. 
Then, we select the partners that we know can produce the match 
on this, as well.
    Mr. McClintock. Would these funds be used for land 
acquisition?
    Mr. Jarvis. No, not for land acquisition.
    Mr. McClintock. Mr. Nau, could you tell us about why there 
is a 5 percent cap on the endowment spending rate?
    Mr. Nau. I am sorry, sir?
    Mr. McClintock. The legislation includes a 5 percent cap 
for spending of the endowment. The Park Service originally 
asked for 50 percent. Why such a low cap?
    Mr. Nau. Well, the standard for endowment management is, 
over a 20-year period, there is an 8 percent return on 
traditionally-managed funds. The idea of putting a 5 percent 
cap is that it is a range that goes from about 4\1/2\ to 5\1/
2\. In emergency years, you might go in and pull another 
percent out. But a 5 percent cap is what the industry standard 
would be. You do not spend up against the 8 percent, 20-year 
level.
    Mr. McClintock. And, basically, that prevents the endowment 
from becoming exhausted, correct?
    Mr. Nau. That is correct.
    Mr. McClintock. OK. And that is standard for endowments of 
this type?
    Mr. Nau. That is correct. By the way, you mentioned that 50 
percent. I have never seen an endowment level spending of 50 
percent. It is not an endowment any more.
    Mr. McClintock. Yes. Director Jarvis, looking at the NPS 
budget, again, it is up 16 percent over the past decade in 
nominal dollars after the prior decade, where it was up 65 
percent. Inflation-adjusted, it is about flat even for the past 
decade, but there is a huge bulge in 2009 and 2010--up $900 
million in a single year, about a 35 percent increase.
    The graph that the Ranking Member showed did not have that 
bulge reflected in the construction fund, so that raised a 
question. Where did that money go?
    Mr. Jarvis. I cannot answer that off the top of my head. 
But I would be glad to come up and show you all the numbers 
later.
    Mr. McClintock. That is a lot of money that was put into 
the Park budget in a single year. When it is not reflected in 
the construction numbers that the Ranking Member offered, that 
becomes a big problem for me. I would really like to know where 
that money went.
    Mr. Jarvis. We would be glad to come up and show you those 
figures.
    Mr. McClintock. Great, thank you.
    Mr. Nau, you talked about the need to engage the urban 
dwellers, Hispanics, and Millennials that have historically low 
park visitation rates. How do we do that? You have talked 
about, obviously, the connectivity for Millennials. How else do 
we get them into the parks?
    Mr. Nau. The Find Your Park program, Mr. Chairman, is 
really a marketing effort. We have reached out to national 
media partners, both social and traditional. We have already 
begun a media program. We have partnered with the corporations 
that are paying fees. They are, in fact, converting a lot of 
their media.
    If I were to name the stars that have lined up to help us, 
I don't think anybody in this room would recognize their names, 
because I sure did not. But they have really stepped up, and we 
have begun to get social media contacts, Mr. Chairman, the 
likes of which I wish I could get in my company's business. So 
it is working. And I believe, coming in the centennial year, we 
will begin to be able to clearly measure the impact, 
particularly on Millennials.
    Mr. McClintock. Well, I have no idea what social media 
means, but I am told it is quite significant.
    [Laughter.]
    Mr. McClintock. One final question. Could we put up the 
overnight stays chart?
    [Chart]
    Mr. McClintock. Director Jarvis, that is the number of 
overnight stays at the national parks since 1979. Obviously, a 
significant decline from highs. In 9 seconds or less, what is 
driving that, and what are we going to do about it?
    Mr. Jarvis. I think that my chart, which I have here and 
would be glad to share with you, is actually showing a turn. 
You can sort of see it there, in 2013 to 2014. But we are 
seeing a significant uptick in visitation, overnight stays, 
campground uses, starting in 2014 and beyond. And that, I 
think, is a direct result of the Find Your Park campaign and 
using social media to attract a new audience.
    But, your point is well taken. For the last decade, it has 
been flat.
    Mr. McClintock. Well, we will leave it at my point was well 
taken.
    [Laughter.]
    Mr. Jarvis. But we are changing that.
    Mr. McClintock. Thank you. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. I appreciate the 
complicated conversation we have had today, as we have explored 
the opportunities that come through philanthropy and private 
contributions, and the ways in which the draft legislation 
seeks to take advantage of that.
    Looking at the way in which the Centennial Challenge has 
been structured in the draft legislation, it really will be 
funded by whatever dollars are raised by the increase in the 
senior fee. And that, in and of itself, there are questions 
around. Presuming that it goes forward as it is currently 
drafted, that could roughly generate about $35 million, which 
would then have to be met, dollar for dollar, by private 
contributions.
    My question really goes, though, more to the proposed 
legislation from Mr. Grijalva, which would put in place $100 
million for 3 years. It is a set amount for 3 years, in each 
year. So, it is $100 million in each year. It is a set amount, 
which seems to be to maximize the opportunity to raise private 
dollars. You know that you have this set-aside from the Federal 
Government, and now it tasks you, the Park Service, to go out 
and raise the private match.
    My thoughts from you, Mr. Nau, for somebody who has been in 
the business of private fundraising, are we missing an 
opportunity by not setting aside a set amount, given what you 
have been saying about those of us, the Baby Boomers, who are 
looking at estate planning, your own knowledge of how private 
individuals give, or even the corporate world, as it makes 
decisions?
    Are we missing an opportunity by not setting aside a set 
amount, and taking advantage of the Centennial to make it 
larger?
    Mr. Nau. Obviously, if you put more money into any kind of 
a program, the ROI is going to increase, particularly for the 
local communities that are at the parks.
    The opportunity presented by the Centennial, ma'am, would 
allow us to craft that private sector engagement in the 
Centennial Challenge. That is the way that will help us, at the 
Foundation and the local Friends groups, to go out and begin to 
generate the kind of matches that we need to.
    The way it is crafted, the dollar level is up to you all. 
But the way it is crafted, we need to have that kind of 
challenge grant. David said that in his opening comments. That 
will help generate significant private sector and corporate 
money.
    Ms. Tsongas. I appreciate Chairman Bishop's concern with 
finding offsets. But, given the unique times we are in, and 
that we are celebrating 100 years, it is a missed opportunity 
to not maximize for private investment.
    But we also know that private investment cannot take the 
place of the Federal responsibility, and that we cannot use 
private fundraising to somehow relieve our obligation to really 
focus on what the Federal Government should be doing.
    Director Jarvis, there has been a 7 percent influx in 
visitors to the national parks in 2014. I would expect that 
visitation will continue to increase as the Centennial nears. I 
have seen the Every Kid in a Park program. I have seen how 
wonderful it is for those fourth graders and their families, as 
they are presented with this visitors pass, the excitement that 
they have that their families will be able to take advantage of 
this.
    But if that is the case, and we do confront robust 
increases in visitation, do you believe the parks are prepared 
to receive these increased numbers of visitors, given the cuts 
in the National Park Service budget over the last several 
years? And how does this draft bill, and the bill introduced by 
Ranking Member Grijalva, help address the needs of the park?
    Mr. Jarvis. I think we are on pace to set a record, in 
terms of visitation for this year. I think it will be even 
larger next year, with all of the attention that is being 
brought to the National Park System.
    It is stressing out the national parks and the staffs. I 
have been out in the field throughout this year, and talking to 
park superintendents and rangers on the ground. We are seeing a 
large influx of new international visitors, particularly from 
China and that part of the world. We are seeing more incidents 
that we have to respond to: search and rescue, emergency 
medical, those kinds of things.
    The Fiscal Year 2016 budget requested operational support, 
as well as these infrastructure investments. We would hope that 
Congress would provide both, so that we can be prepared to 
receive the number of visitors we expect in 2016.
    Ms. Tsongas. Thank you. My time is up. Thank you for being 
here.
    Mr. McClintock. Thank you. Mrs. Lummis.
    Mrs. Lummis. Before I ask Director Jarvis some questions, I 
do want to thank you, Mr. Nau, for your work on the Foundation 
Board, and your long-standing commitment to our national parks. 
It is exemplary. I hope there are many more clones of your work 
in the future.
    Director Jarvis, I have a question about what appears to be 
a difference between the Bishop discussion draft and the 
Grijalva bill related to the Visitor Service Management 
Authority. Is this authority meant to work alongside the 1998 
concessions law, or is it meant to replace it?
    Mr. Jarvis. It is to work alongside the 1998 concessions 
law.
    Mrs. Lummis. OK. I am curious about how they would 
interact. In fact, wouldn't it be easier to just revisit the 
1998 law, instead of creating a new authority? Why not 
integrate the two, instead of creating a parallel universe 
here?
    Mr. Jarvis. I think what we ultimately would like to do is 
to work with you to amend the 1998 law. But I do not think we 
are ready. We want to try some new models that are more 
consistent with the private sector models, particularly lodging 
and food service, and then bring to you the results of that so 
that we can amend the 1998 law in a way that would both provide 
an opportunity for the private sector to invest, which would 
allow the Service to upgrade its facilities, and provide the 
kind of experience that the public expects in our second 
century. But I, frankly, do not think we are ready to make 
those tweaks yet.
    Mrs. Lummis. You see the need for a different model. 
Correct?
    Mr. Jarvis. I see the need for an adjustment to the 
existing model.
    Mrs. Lummis. OK.
    Mr. Jarvis. Very much so.
    Mrs. Lummis. OK. What would that adjustment be?
    Mr. Jarvis. So, for instance, let's just take the 
leaseholder surrender interest component that is in the current 
1998 law. That creates, essentially, upside-down contracts. It 
creates a contract where a new competitive bid coming in would 
have to put up a significant amount of capital, in some cases 
over $100 million, in order to be the new concessioner. Even 
though the goal of the 1998 law was to create competition, the 
leaseholder surrender interest actually creates a 
noncompetitive environment.
    We need a new model to allow, obviously, the private sector 
to get a return on their investment. But this model, that was 
created in 1998, really is problematic for us in the long term, 
and it has resulted in a really small group of concessioners 
out there that understand this enough to compete in that 
environment.
    It is a one-size-fits-all law. We are using the same set of 
parameters without any negotiation for the Grand Canyon and a 
very small lodge in Glacier Bay, or a marina in Lake Mead. We 
need a broader range of tools to be able to provide these kinds 
of services, work with the private sector, but also be able to 
upgrade them to meet current standards. The current law does 
not do that.
    Mrs. Lummis. OK, thanks. That helped me understand where 
you are heading with this.
    I am going to switch to the senior pass. The price of a 
lifetime senior pass was established at $10 in 1994. Currently, 
you support, as I understand it, increasing the price of the 
pass to match the current annual parks pass. Can you explain 
why you support that increase?
    Mr. Jarvis. Well, I have to say, and I am a current holder 
of the $10 senior lifetime pass. It is about the price of a cup 
of coffee and a muffin at Starbucks.
    Mrs. Lummis. Right, yes.
    Mr. Jarvis. I have yet to meet anyone that felt that that 
was an appropriate cost for a lifetime pass, including many, 
many, many seniors. We still think that seniors should get a 
lifetime pass. By pegging it to the current America the 
Beautiful Pass, which is, frankly, a deal itself at $80, we 
think we will not only generate a new source of revenue for us 
to reinvest in the national parks, but also make it available 
to a generation that can afford an $80 pass one time.
    Mrs. Lummis. Yes.
    Mr. Jarvis. And I have talked to various senior groups, 
including AARP, and they are supportive of this concept.
    Mr. McClintock. Great.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Mr. McClintock. Mr. Hardy.
    Mr. Hardy. Thank you. Mr. Jarvis, as you know, in October, 
Scotty's Castle in Death Valley had a flash flood that 
basically has put the project in jeopardy of staying closed 
until it gets repaired. It generates about $550,000 a year and 
close to 120,000 people visit. This will cause $50 million in 
damage over the whole entire park.
    Can the Centennial Challenge endowment funds be used on 
those types of projects?
    Mr. Jarvis. First of all, let me just say, yes, it was 
extraordinary damage. And, by the way, the state of Nevada was 
an extraordinarily supportive partner there, in responding to 
that.
    The transportation funds that are in the transportation 
bill would definitely be used. We have, within the Park Service 
transportation program, as well as our line item, what we call 
emergency repair funds. So, they would be the initial funds 
that would go to this.
    In terms of specific things like Scotty's Castle and the 
collection, those are absolutely appropriate investments from 
the Centennial Fund that are in this bill.
    Mr. Hardy. OK, I am going to ask a little more difficult 
and challenging question of you. I had the experience of being 
a Director of Public Works for about 7 years for a city. I also 
had the experience of being a City Councilman for two terms. 
Through that process, whenever we created a park, opened a 
recreation center, or did anything along those lines of trying 
to create that better environment and better opportunity, I 
made sure, or my other adjoining councilmen always made sure 
that we had the funds. Are we able to finance that, and 
maintain that at its highest standard, through future budgets?
    Tell me if you go through the same analysis at this Federal 
level when you do projects. How do you maintain things if you 
use capital dollars to grow the project? It appears to me there 
is a challenge of not looking down the road to the future to 
see how we can take care of it on the existing dollars we have. 
You just cannot keep going back to the taxpayer to continue to 
increase taxes to pay for things. Is that happening at this 
Federal level?
    Mr. Jarvis. Well, analogous to your experience with parks 
or facilities that were developed, you would have to go to the 
City Council to receive some support to do that and also use 
some user fees. That is exactly the situation we are in, as 
well. We are using our user fees to support that as much as we 
possibly can. At the same time, we need Federal support from 
the taxpayer, from the Appropriations Committee, in order to 
support these facilities.
    We are not building any new visitor centers. We are in a 
triage situation of basically not building new facilities 
across the system, unless somebody else is paying for it, 
because we just do not have the resources to do that.
    Mr. Hardy. There seems to be a trend over the last 30 
years, through the Antiquities Act, that national monuments 
continue to grow and continue to be basically dumped on the 
Park Service without the funding coming forward. Has that been 
part of the challenge? Maybe some of these national monuments 
that we continue to create may not be able to pay for 
themselves?
    Mr. Jarvis. Well, I will say that every year there are 
proposals for new parks, both before the Congress and before 
the Administration. I would say the Park Service attempts to 
oppose a significant number of those because we cannot take 
care of them. When they are presented to us, we really work 
hard to minimize our responsibilities, make our footprint as 
small as possible, take on no new facilities, and see if there 
is a partner that can step up.
    Mr. Hardy. I guess what I am leading to is could that be 
part of the cause of the backlog?
    Mr. Jarvis. It adds to the backlog, but the backlog 
principally is our older infrastructure that was built in the 
1960s and 1970s.
    Mr. Hardy. Because at the Federal level, in my opinion, we 
do not look forward to see what it is going to cost to take 
care of things and budget for the maintenance after you do a 
capital project.
    Thank you, Mr. Chairman.
    Mr. McClintock. Great. Thank you. I want to thank all of 
our witnesses for their testimony today. As the Chairman said, 
this is labeled a draft for a reason; it is a work in progress. 
Now is the time for anyone with ideas on bolstering the parks 
in the centennial year to come forward with them. I appreciate 
all of the suggestions that you have offered today.
    We may have additional questions. We will keep the record 
open for 10 days to receive answers to those questions.
    With that, if there is no further business before the 
subcommittee, the subcommittee will stand adjourned.

    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of Derrick A. Crandall, Counselor, National Park 
                Hospitality Association, Washington, DC

    Mr. Chairman and Members, the National Park Hospitality Association 
(NPHA) offers this testimony regarding the discussion draft of the 
``National Park Service Centennial Act.'' NPHA is both enthusiastic 
about and actively engaged in activities associated with the Centennial 
of the National Park Service. The role of this agency in protecting and 
supporting the enjoyment of the special legacy of America's more than 
400 park units is important and appreciated by the public.

    We applaud and share the interest of the Congress in using the 
Centennial as a time to assess and improve the tools available to 
operate our park units. We are especially proud of the role we played, 
in concert with the Bipartisan Policy Center and the National Parks 
Conservation Association, in 2013 at a Bridgebuilder session examining 
Sustainable Supplementary Funding for America's National Parks. We 
offered 16 white papers for congressional and agency consideration, 
from a new Penny for Parks increase in Federal motorfuel taxes to 
provide better public access to the Great Outdoors to changes which 
would allow historic tax credits for investments in qualifying sites in 
parks.

    Concessioners have served park visitors since the 1870s and today 
serve some 100 million park visitors annually in approximately 120 park 
units. NPHA members have a combined workforce of nearly 25,000 persons, 
mostly front-line, visitor contact jobs, and provide in excess of $1 
billion in goods and services to visitors annually. Concessioner 
franchise payments to NPS are more than $100 million annually. 
Concessioner marketing and promotion efforts total more than $20 
million annually, and are coordinated with marketing and promotion 
efforts of states and gateway communities that equal that amount. 
Concessioners are leading efforts to promote the National Park System 
to all Americans. Visitation to parks has been flat over the past three 
decades, and has actually declined if you discount new units added to 
the system. Most importantly, concessioners are committed to meeting 
America's needs--needs for healthier lifestyles, for better and 
lifelong educational opportunities, for strong local and regional 
economies that can sustain and protect our parks and for connecting all 
Americans across differences in regions, ages, income and ethnicity.

    We applaud efforts to enact meaningful NPS Centennial legislation. 
The discussion draft provides the means to invite and challenge 
individual and organizational donors--by leveraging the impact of their 
contributions. This is a proven strategy for parks and philanthropy in 
general. Several of our members were involved in an initial and 
successful Centennial Challenge effort mounted under then-Interior 
Secretary Dirk Kempthorne.

    We further support the concept of an endowment for our parks, 
although we believe that the mammoth backlog in deferred maintenance is 
of such urgency that we cannot support diversion of fees and other 
current funding streams away from critical current operational needs.
    Based upon our knowledge about visitation to America's national 
parks, we offer the following specific suggestions:

  1.  We strongly support the purpose statement of the Discussion 
            Draft:

       To prepare the National Park Service for its Centennial in 2016 
            and for a second century of promoting and protecting the 
            natural, historic, and cultural resources of our National 
            Parks for the enjoyment of present and future generations, 
            and for other purposes.

  2.  We recommend a replacement in the funding stream proposed for the 
            endowment account established under the National Park 
            Foundation. The proposed 5 percent tax on lodging within 
            national parks should not be adopted for several important 
            reasons. First, it would alter the comparability provisions 
            for the pricing of lodging in parks established under the 
            1998 concessions law. Second, the tax would be paid by a 
            very small portion of all park visitors and would yield no 
            responsive benefits to those paying the tax. Third, the tax 
            could be a real deterrent to efforts to attract visitors to 
            parks during shoulder seasons, undermining important 
            streams of revenue to the agency from entrance fees and 
            franchise fees that are key to operations and maintenance. 
            Fourth, the addition of a new Federal tax on state and 
            county sales and tourism taxes, utility pass-through 
            charges and more is likely to have a chilling effect on the 
            guest donation program--again, an important source of 
            support for park programs and projects today and an 
            important opportunity for expansion as a funding strategy 
            once needed revisions are made to NPS Directors Order 21. 
            And fifth, the administration of this tax will be a 
            challenge and the transfer of the tax to a non-Federal 
            entity raises a variety of issues.

       Instead, we suggest that the committee add a Centennial Park 
            Entrance Fee Surcharge of $1 on all existing entrance 
            fees--whether for vehicles or per person. We believe that 
            this would be a fair and appropriate means to raise 
            revenues of at least $10 million annually. We also believe 
            that park visitors can be told about the surcharge in a way 
            that will yield support, and perhaps interest in additional 
            actions to support parks.

  3.  We enthusiastically support the continuation and expansion of the 
            Centennial Challenge Program. Encouraging nonprofits, 
            corporations and individuals to contribute toward important 
            national park programs and projects is a vital part of a 
            long-term strategy for keeping America's parks relevant and 
            well-functioning.

  4.  We support the proposal to authorize an appropriation of up to 
            $25 million annually for the National Park Foundation. We 
            strongly support the Foundation's Centennial efforts, 
            including leadership of the Find Your Park Campaign, to 
            make our national park system relevant, enjoyed and 
            supported. We support continuing outreach efforts after the 
            Centennial. We think appropriated general funding, and 
            other sources including resource mitigation and penalty 
            funds, can dramatically increase available park resources.

  5.  We urge the committee to act outside of the discussion draft to 
            support creation of a Centennial Penny for Parks Federal 
            motorfuel excise tax surcharge. We are attaching our letter 
            to the Chairman of the Committees on Transportation and 
            Infrastructure and Ways and Means that further outlines 
            this concept. The significant revenues associated with this 
            program would allow elimination of the large and growing 
            backlog in transportation-related investment needs in 
            national parks and other federally managed lands within a 
            decade and could underwrite innovative ways to improve 
            accessibility of our Great Outdoors to all Americans.

  6.  We support the addition of a new title to the discussion draft. 
            We suggest use of this description: Visitor Outreach and 
            Experience Improvement Program. For decades, national parks 
            offered the leading example of use of private capital to 
            support public agency efforts. Investments by concessioners 
            since the early 1900s have produced a remarkable set of 
            treasured structures that are world-renowned. From Yosemite 
            Valley to the Grand Canyon, from Grand Teton to Glacier, 
            from Acadia to the Blue Ridge Parkway, lodges and 
            restaurants and stores and marinas have been built with 
            private capital--and are now some of the most prized 
            elements of our National Register of Historic Places. We 
            now see a similar pattern of public/private partnerships 
            emerging in transportation and other programs. The National 
            Park Service can and should build upon this wonderful 
            tradition in its second century, guided and encouraged by 
            new congressional direction in the Centennial Act.

       Specifically, we urge this new title to include direction to 
            attract needed investment from concessioners to expand and 
            improve visitor services in parks, including through 
            modernization of lodges, campgrounds and marinas. Part of 
            this modernization will depend upon new flexibility by the 
            agency, including authority to issue concessions contracts 
            of up to 40 years--a provision that should permit 
            eligibility for historic tax credits by concessioners and 
            thus boost the attractiveness of significant investments 
            that can permit existing and iconic structures to be 
            functional and efficient and modernized to incorporate best 
            practices in design. Improved visitor experiences will also 
            result from extension of operating hours and seasons and 
            encouragement of the transfer of existing campgrounds to 
            concessioner operations which will offer more diverse 
            overnight options, serve more visitors and generate new 
            revenues for the agency.

       We would also support experimentation with new models for 
            public-private partnerships, especially for park units that 
            now receive low visitation and/or have inadequate visitor 
            services to accommodate greater visitation. We have 
            suggested that NPS experiment with leases and 
            nonappropriated funding instrumentalities over the next 
            decade, and support congressional authority for up to 10 
            pilot efforts which supplement, but do not compete with or 
            replace, the agency's current concessions contracts and 
            authorities.

  7.  We ask the Congress to support NPS efforts to promote visitation 
            of national parks, a core mission of the agency established 
            under its 1916 organic act:

       ``The service thus established shall promote and regulate the 
            use of the Federal areas known as national parks, 
            monuments, and reservations . . .''

       Promotion efforts of the agency flourished during its initial 50 
            years of operations, including hosting the original U.S. 
            Travel Bureau. In order to revitalize this core program, we 
            urge the Congress to specifically authorize the use of up 
            to 10 percent of the franchise fees paid by national park 
            concessioners annually to support NPS outreach and 
            marketing efforts in partnership with states, gateway 
            communities and concessioners. We believe that outreach and 
            promotion efforts will increase collection of park entrance 
            and recreation fees sufficiently to underwrite both 
            improvements in visitor experiences and specific efforts, 
            including fee-free days, to successfully invite 
            nontraditional park visitors. There are numerous examples 
            of isolated and successful cooperative efforts now 
            underway, including shared interpretive costs and outreach 
            to international visitors through Federal Row at IPW, which 
            could be made commonplace.

       Most concessioner franchise fees are retained in the park 
            generating those fees--80 percent of all franchise fees are 
            used locally. The remaining 20 percent are used at the 
            discretion of the NPS Director. We urge incorporation in 
            the Centennial Act of a new National Park Outreach and 
            Promotion Fund and the following funding strategy:

       ``Up to 10 percent of the concessioner franchise fees collected 
            by the agency each year may be used to support agency 
            outreach and marketing programs designed to connect all 
            Americans to their parks, and especially those portions of 
            the American public under-represented among current park 
            visitors. Nothing in this provision, however, shall 
            authorize any change in the use of concessioner franchise 
            fees retained by the park generating the fees. Outreach and 
            marketing programs shall be undertaken in cooperation with 
            state and regional DMOs and NPS concessioners, and shall 
            require not less than 1:1 matching of Federal funds.''

  8.  We support increased use of conservation corps in national parks. 
            Concessioners in Shenandoah National Park, Yellowstone 
            National Park and other units are utilizing youth 
            conservation corps to undertake construction, 
            reconstruction and maintenance projects which replicate 
            many of the successes of the Civilian Conservation Corps 
            Program of the 1930s, including connecting urban youth to 
            parks. Pilot projects have shown that use of conservation 
            corps can also actually reduce project costs. Direction by 
            the Congress in the Centennial Act would aid in expanding 
            use of conservation corps in parks, working cooperatively 
            with The Corps Network, the National Trust for Historic 
            Preservation and concessioners, reducing the barrier of 
            current Federal Acquisition Regulations (FAR) and more.

    Mr. Chairman and Members, we know you would agree that we need to 
get Americans back in touch with nature, engaged in physical activities 
and outdoor recreation, and connected to the magnificent culture, 
heritage and landscapes that are celebrated by our National Park 
System. We need to reach out to youth to encourage them to share in the 
wonder and enjoyment of our national parks and discourage the 
increasingly sedentary lifestyles that are contributing to our health 
care crisis. We need to expand park visitation to encourage minorities, 
disadvantaged communities, new Americans and urban residents to see 
their national parks for themselves and to build a broader constituency 
for America's Great Outdoors. And, we need to find new and innovative 
ways to reinvest in the maintenance, restoration, and expansion of 
critical park infrastructure--much of which was built either by private 
investment when the national parks were first created, or in 
conjunction with the work of the Civilian Conservation Corps more than 
half a century ago.

    The National Park Hospitality Association and the National Park 
concessioners want to help you, the National Park Service, and all 
Americans in achieving these objectives. As the 100th Anniversary of 
the National Park Service shines a light on America's Best Idea, we 
hope you will help us build on our long-standing partnership with the 
NPS to find new and innovative ways to improve the parks and create a 
new generation of Americans who share in the wonder of this amazing 
legacy.

    We thank you for considering this testimony.

Attachment

                               ATTACHMENT

              National Park Hospitality Association
                                             Washington, DC

                                                   December 1, 2015

Hon. Bill Shuster, Chairman
Committee on Transportation and Infrastructure
U.S. House of Representatives
Washington, DC 20515

Hon. Kevin Brady, Chairman
Committee on Ways and Means
U.S. House of Representatives
Washington, DC 20515

    Dear Chairman Shuster and Brady:

    We are writing to urge your personal support in capitalizing on 
important opportunities and national needs regarding the transportation 
infrastructure of our nation's national parks and other legacy Great 
Outdoors areas. The National Park Service will celebrate its 100th 
anniversary in 2016--a wonderful testimonial to bipartisan leadership 
to protect special natural and historic sites across our nation and to 
use these sites to tell some of our greatest stories. Our national 
parks and other public lands--including national forests and national 
wildlife refuges and more--attract more than a billion visits annually. 
But these special places are in trouble.

    Nearly one-third of our nation is managed by federal agencies 
ranging from the National Park Service to the Forest Service, from the 
Bureau of Land Management to the U.S. Army Corps of Engineers. These 
lands are vital to the nation for many reasons and certainly for their 
importance to recreation and tourism. Recreation expenditures in this 
country total more than $650 billion annually. To demonstrate the 
importance of federal lands, consider just three numbers:

  1)  national park concessioners provide more than $1.4 billion in 
            lodging, food, transportation and other services to tens of 
            millions of visitors to national parks annually, employing 
            25,000 persons;

  2)  key sectors of the recreation community are especially reliant on 
            these lands and waters. More than 60% of all downhill 
            skiing occurs at ski areas in national forests; and

  3)  the national strategy to dramatically boost tourism to the USA, 
            essential to achieving a better balance of trade, relies 
            significantly on America's Great Outdoors, according to 
            Brand USA, the Congressionally chartered corporation 
            charged with growing inbound visitors from 60 million in 
            2011 to 100 million in 2021.

    The condition of infrastructure on federally-managed lands is 
bleak. Key forest roads essential to reaching campgrounds, river access 
points and trailheads are no longer safe for passenger cars. Our iconic 
National Park System, less than a year from its managing agency's 
Centennial, has a backlog of deferred maintenance of nearly $12 billion 
in road, water system, dams and structures and has virtually no plans 
to expand its capability to serve our growing population. Other key 
agencies, including the Forest Service, also have backlogs of deferred 
maintenance totaling in the billions of dollars, and are actually 
closing roads and reducing public access.

    Unlike virtually all other public roads in America, roads on 
America's public lands receive no support from the state motorfuel tax 
levied on gasoline sold at the retail level. For the estimated four 
million miles of interstates, primary and secondary routes, these state 
taxes fund 20% of road construction and reconstruction and nearly all 
maintenance and operations. Yet roads vital to Americans seeking to 
access campgrounds, trailheads, beaches and to reach rivers and lakes 
on federal lands depend upon appropriated federal dollars from the 
beleaguered domestic discretionary pot for operation and maintenance, 
contrasting with most public roads in the nation which qualify for 80% 
federal funding for construction and then use of state motorfuel 
revenues for operation and maintenance.

    The solution is simple. The nation needs to add a Penny for Parks 
to its federal motorfuel tax rate for the next decade, a tax which 
would acknowledge the federal responsibility for accessing our nation's 
parks and other public lands. This funding would end the competition 
road operations and maintenance now pose to federal recreation and 
conservation programs in the annual appropriations process. Adopting 
this supplemental tax for a ten year period would allow continued and 
improved safe access by Americans to their public lands.

    We believe that action on Penny for Parks in recognition of the 
National Park Service Centennial would enjoy broad support among the 
nation's recreation, tourism, conservation and transportation 
communities. We invite your leadership on this matter and commit to 
urging these communities to support your actions.

            Sincerely,

                                       Derrick A. Crandall,
                                                         Counselor.

                                 ______
                                 

          Association of Partners for Public Lands,
                                   Silver Spring, Maryland.

                                                   December 1, 2015

Hon. Tom McClintock, Chairman,
Hon. Niki Tsongas, Ranking Member,
House Committee on Natural Resources,
Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Tsongas:

    The National Park Service (NPS) Centennial in 2016 has the 
potential to be a catalytic moment in the history of America's public 
lands and their partnerships with nonprofit organizations. The 
discussion draft of the National Park Service Centennial Act presented 
by Chairman Bishop clearly recognizes the centrality of private 
philanthropy and a vital network of nonprofit park partners in 
developing sustainable solutions for improving our parks and enhancing 
the visitor experience.

    Since 1977, the Association of Partners for Public Lands (APPL) has 
been the national voice for the nonprofit partners of America's public 
lands, providing critical training to improve their effectiveness and 
magnify their impact. Our members are nearly 100 friends groups, 
cooperating associations, educational institutes and other nonprofit 
partners of America's public lands. Our members range in scale from the 
all-volunteer Friends of the Klondike Gold Rush to Eastern National, a 
cooperating association partnering with over 160 national parks, and 
the Golden Gate National Parks Conservancy which has alone provided 
more than $350 million in park support.
    APPL member organizations are operational partners in more than 340 
of the 409 national park units. Our members staff most visitor centers, 
provide interpretive materials, offer educational programs and give 
back through grants and other partnerships. Not only do APPL members 
save federal funds by providing these services, but they provide more 
than $150 million annually in aid to the NPS through major projects, 
grants, programs and services that respond to the agency's priorities.

    We are grateful that you have called upon two of our member 
organizations--the Friends of Acadia and the National Park Foundation--
to share how this legislation will positively impact efforts in the 
field and among national partners. In this context, we offer a few 
thoughts about the implications of the legislation for the broader 
community of nonprofit organizations that APPL represents.
NATIONAL PARK CENTENNIAL CHALLENGE FUND (TITLE I)
    APPL enthusiastically supports the discussion drafts creation of a 
permanent Centennial Challenge Fund with a dedicated federal funding 
stream. We view as a key strategy for enhancing America's national 
parks in their second century.

    For almost 10 years, bipartisan enthusiasm for the Centennial 
Challenge idea has provided federal dollars that have been leveraged by 
significant private contributions to enhance our national parks. David 
MacDonald of the Friends of Acadia will speak eloquently to the ways 
that his organization has tackled specific deferred maintenance 
projects that could excite donors. Across the country, several APPL 
members are among the 90 private organizations demonstrating the value 
of the Centennial Challenge in 2015, contributing significantly to the 
almost $16 million in donations that are matching $10 million in 
federal funding. These members include:

    <bullet> Yosemite Conservancy is rehabilitating and restoring the 
            Mariposa Grove of Sequoia Trees. The project improves 
            hydrology related to roads and trails to benefit the giant 
            sequoias, enhances safety and traffic flow, adds new 
            accessible parking spaces and restores 3.93 acres of giant 
            sequoia and wetland habitats.

    <bullet> Blue Ridge Parkway Foundation is repairing and restoring 
            historic structures at Johnson Farm and making walkways in 
            Price Pak Campground accessible to all visitors.

    <bullet> Grand Canyon Association is enhancing a one mile segment 
            of the Bright Angel Trail, one of the most popular used by 
            visitors to reach the Colorado River.

    The discussion draft importantly builds on this tradition by 
establishing a sustainable public-private philanthropic opportunity 
wherein federal dollars are matched at a minimum of one-to-one by 
donations. By seeding the federal commitment with a much needed 
increase in the price of the Senior Pass, the proposed legislation 
enables the NPS and its nonprofit partners to plan and think big. 
Nonprofit partners who can share the guarantee of a future federal 
match with their donors and constituents will be better positioned to 
attract greater philanthropy and aid--especially smaller organizations 
that lack sizable philanthropic bases in their gateway communities.

    The Centennial Challenge Fund is founded on the concept that parks 
and their visitors will benefit by leveraging public and private 
investment. Nonprofit park partners have resources, skills and 
expertise that the NPS may not have, and these too should be leveraged 
in the Challenge. We are concerned that the discussion draft requires 
all funds to flow through the federal treasury. There are times when 
dollars can be further leverages by enabling the nonprofit partner to 
manage or provide a signature project or program. Additionally, some 
foundations will not permit their funds to be sent to government 
entities.

    APPL would welcome the opportunity to work with the Subcommittee to 
empower nonprofit park partners to have a larger role in the delivery 
of signature projects and programs while maintaining the highest 
standards of accountability and transparency. Further, we are eager to 
work with the Subcommittee to identify additional funding streams for 
the Centennial Challenge Fund.
NATIONAL PARK FOUNDATION ENDOWMENT (TITLE II and V)
    APPL applauds the creation of a National Park Foundation Endowment 
as a long term investment in the national park system and a legacy of 
this Congress. The prospect of an endowment will provide a new avenue 
for philanthropic park support and we appreciate the National Park 
Foundation's willingness to steward such an important effort. We also 
applaud the Chairman's requirement that the endowment function as a 
traditional endowment would by using only 5% of its funds annually for 
projects, thus increasing the likelihood of growing a substantial 
corpus.

    We join the National Park Foundation in strongly supporting the 
amendments to the organization's Congressional charter that 
reconfigures its board leadership. The result will be a model that has 
been successfully employed by many nonprofit park partners.
NATIONAL PARK NEXT GENERATION STEWARDS (TITLE III)
    APPL commends the inclusion of authorities that highlight the 
educational mission of the NPS, expand opportunities for millennials to 
join the conservation workforce through the National Park Service and 
other land management agencies, and increase funding available to the 
Volunteer-in-Parks program. Collectively, these authorities provide the 
NPS with more tools to work with their nonprofit park partners in 
serving a diverse and growing public.

    The Chairman has provided a compelling road map for Congress to 
consider its role in marking the 100th anniversary of the National Park 
Service. APPL is eager to work with the Subcommittee to further refine 
the discussion draft so that we continue to develop new opportunities 
for nonprofit park partners in this second century of preservation and 
enjoyment.

    We thank you for your consideration of our views and 
recommendations.

            Sincerely,

        Jerryne Cole,                 Diana Nielsen Saathoff,
        President, APPL Board of 
        Directors,                    Government Relations Committee
        Vice President, Denali 
        National Park                   Chair, APPL Board of Directors,
          Wilderness Centers, AK.     Executive Director, Mount 
                                      Rushmore Society, SD.

        Dan Puskar,
        Executive Director,
        Association of Partners for 
        Public Lands, MD.

ASSOCIATION OF PARTNERS FOR PUBLIC LANDS:
MEMBER ORGANIZATIONS THAT PARTNER WITH THE NATIONAL
  PARK SERVICE

        Adventures and Scientists 
        for Conservation              Great Smoky Mountains Association

        Alaska Geographic             Harpers Ferry Historical 
                                      Association

        Badlands Natural History 
        Association                   Hawai'i Pacific Parks Association

        Big Bend Conservancy          Intermountain Natural History 
                                      Association

        Big Bend Natural History 
        Association                   Isle Royale & Keweenaw Parks 
                                      Association

        Black Hills Parks and 
        Forests Association           Jamaica Bay-Rockaway Parks 
                                      Conservancy

        Blue Ridge Parkway 
        Foundation                    Jefferson National Parks 
                                      Association

        Bryce Canyon Natural 
        History Association           Joshua Tree National Park 
                                      Association

        Cabrillo National Monument 
        Foundation                    Lassen Association
        Canyonlands Natural History 
        Association                   Lewis & Clark National Park 
                                      Association

        Capitol Reef Natural 
        History Association           Manzanar History Association

        Carlsbad Caverns Guadalupe 
        Mountains Assoc.              Mesa Verde Museum Association

        Carver Birthplace 
        Association                   Mississippi Park Connection

        Colorado National Monument 
        Association                   Mount Rushmore Society

        Conservancy for Cuyahoga 
        Valley National Park          National Association for 
                                      Interpretation

        Crater Lake Natural History 
        Association                   National First Ladies' Library

        Craters of the Moon Natural 
        History Association           National Park Foundation

        Death Valley Natural 
        History Association           National Parks Conservation 
                                      Association

        Devils Tower Natural 
        History Association           Ocmulgee National Monument 
                                      Association

        Discover Your Northwest       Pacific Historic Parks

        Eastern National              Petrified Forest Museum 
                                      Association

        Everglades Association        Point Reyes National Seashore 
                                      Association

        Fort Laramie Historical 
        Association                   Protectors of Tule Springs

        Friends of Acadia             Public Lands Institute, 
                                      University of Las Vegas

        Friends of Aztec Ruins 
        National Monument             Redwood Parks Association

        Friends of the Blue Ridge 
        Parkway                       Rocky Mountain Conservancy

        Friends of Great Smoky 
        Mountains National Park       Rosie the Riveter Trust

        Friends of Hawaii Volcanoes 
        National Park                 Santa Monica Mountains Fund

        Friends of Independence 
        National Historical Park      Sequoia Parks Conservancy

        Friends of the Klondike 
        Corridor                      South Florida National Parks 
                                      Trust

        The Glacier Institute         Shenandoah National Park 
                                      Association
        Glacier National Park 
        Conservancy                   Theodore Roosevelt Nature and 
                                      History Assoc.

        Glen Canyon Natural History 
        Association                   Western National Parks 
                                      Association
        Golden Gate National Parks 
        Conservancy                   Yellowstone Association

        Grand Canyon Association      Yosemite Conservancy

        Grand Teton Association       Zion Natural History Association

        Grand Teton National Park 
        Foundation

                                 ______
                                 

                                 The Corps Network,
                                            Washington, DC.

                                                   December 1, 2015

Hon. Tom McClintock, Chairman,
Hon. Niki Tsongas, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Tsongas:

    Thank you for the opportunity to provide testimony for the hearing 
record on Chairman Bishop's draft ``National Park Service Centennial 
Act.'' On behalf of Service & Conservation Corps (Corps) around the 
country, we appreciate your efforts to strengthen the National Park 
Service (NPS) in anticipation of its centennial. This draft is a strong 
step for the NPS, its thousands of visitors, and partners like Corps 
that improve our parks and the visitor experience. We also greatly 
appreciate Ranking Member Grijalva's leadership in previously 
introducing the National Park Service Centennial Act, H.R. 3556 and the 
President's efforts in putting forward the draft NPS centennial 
legislation.

    We particularly appreciate, and express our strong support, for 
inclusion of key provisions to strengthen Public Land Corps in Sec. 402 
of the draft. Through the Public Lands Corps Act of 1993, Corps work 
with NPS to ``perform, in a cost-effective manner, appropriate 
conservation projects on eligible service lands'' and expose 
Corpsmembers ``to public service while furthering their understanding 
and appreciation of the Nation's natural and cultural resources.'' Sec. 
402 will allow us to significantly improve our Corps, and our work for 
NPS and the nation, by raising the allowable age of Corpsmembers to 30 
from 25 which will allow us to engage more veterans and by extending 
the federal noncompetitive hiring status to ensure our Corpsmembers can 
efficiently move on to the next step in their careers.

    The Corps Network is comprised of over 120 Corps that work in every 
state and engage over 20,000 youth and veterans (Corpsmembers) each 
year in our Corps model which involves conservation service projects in 
local communities or on public lands. Tied to those projects, 
Corpsmembers receive educational, workforce, and supportive services. 
Corps work in NPS units around the country in helping to make 
improvements to trails, infrastructure, manage and improve park 
ecosystems, and preserve historic structures. In addition we work with 
NPS' concessionaires on accomplishing projects for the parks and 
visitors. Modern-day Corps descended from the Civilian Conservation 
Corps and continue that legacy by developing the next generation of 
diverse conservation, recreation, and resource leaders.

    Passage of this legislation along with additional investments in 
NPS and its partners like our Corps will ensure our nation's parks are 
ready for the next 100 years of providing ``enjoyment, education, and 
inspiration of this and future generations.'' Thank you again for your 
leadership, and we look forward to working toward passage of a 
bipartisan National Park Service Centennial bill.

            Sincerely,

                                       Mary Ellen Sprenkel,
                                                               CEO.

                                 ______
                                 

    National Parks Second Century Action Coalition,
                                            Washington, DC.

                                                   December 3, 2015

Hon. Tom McClintock, Chairman,
Hon. Niki Tsongas, Ranking Member,
House Committee on Natural Resources,
Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock, Ranking Member Tsongas, and Members of 
the Federal Lands Subcommittee:

    Next year, Americans will celebrate the 100th anniversary of the 
National Park Service. We, the National Parks Second Century Action 
Coalition and other partners, write in strong support of efforts 
underway to prepare our national parks for a second century of service 
for current and future generations.

    The National Parks Second Century Action Coalition is comprised of 
organizations supporting conservation, recreation, outdoor industry, 
travel and tourism and historic preservation that are dedicated to 
promoting the protection, restoration, and operation of the National 
Park System to benefit the health and well-being of current and future 
generations.

    We applaud Natural Resources Committee Chairman Bishop for 
developing the discussion draft National Park Service Centennial Act, 
as well as Natural Resources Committee Ranking Member Grijalva for 
introducing the administration's Centennial proposal (H.R. 3556). These 
bills demonstrate needed congressional interest in providing a 
significant commemoration of--and support for--the National Park 
Service Centennial. The bills provide needed funding for programs and 
maintenance through the Centennial Challenge Fund as well as a path 
toward improved long-term fiscal health with the establishment and 
investment of an endowment.

    With an expected influx of visitors expected during and following 
the Centennial year, it would be a shame if families arrived to 
decaying facilities and too few rangers to greet them due to the 
current fiscal challenges facing national parks. On the eve of the 
National Park Service Centennial, our national parks are facing 
billions of dollars' worth of overdue repairs. Additionally, there has 
been more than a 7%, or $178 million reduction in the account to 
operate national parks and more than a 12%, or $370 million reduction 
in the total budget for the National Park Service over the last five 
years in today's dollars. These Centennial bills provide important 
support for helping relieve these significant funding shortfalls.

    We support the provisions in the proposed legislation and H.R. 3556 
that formally establish the Centennial Challenge Fund and an endowment 
to help address some of the financial needs of our nation's parks. We 
hope the committee will continue to investigate additional revenue 
sources to more robustly invest in the Centennial Challenge Fund and 
explore additional funding mechanisms for the National Park Service, 
while also more directly reducing the deferred maintenance backlog.

    The Centennial Challenge is an innovative program that encourages 
private individuals, foundations, businesses and others to donate funds 
to help restore and improve our national parks by providing a federal 
match for the donations. Previous annual investments have supported 
valuable centennial projects throughout the country. If this bill were 
enacted, it would establish this program over three years, allowing 
partners additional time and certainty to raise the matching funds. The 
endowment would provide long term financial support for the national 
parks by investing monetary gifts and other contributions to be used in 
the future for projects and activities that support the national parks.

    We also support provisions in the bills that recognize the 
importance of national parks as places of learning by enhancing 
interpretation and education programs, and by providing additional 
opportunities for volunteers in our nation's treasures. We also support 
the provisions that will help connect a new, diverse generation to the 
great outdoors and allow the National Park Service to recruit and hire 
more young and diverse Americans.

    Passage of a bipartisan centennial bill, coupled with additional 
investments for national park roads in the transportation bill and 
operation and construction funding in the FY16 omnibus appropriations 
bill, can ensure our parks are better prepared to serve another hundred 
years and beyond.
    Again, we thank Natural Resources Committee Chairman Bishop and 
Ranking Member Grijalva and their committee staff for offering a forum 
for discussion of strategies to keep America's national parks relevant 
and cherished and for offering specific steps to achieve these goals. 
We urge other members of the committee to support the effort and work 
with the Senate to swiftly move a final Centennial Bill toward passage.

    Thank you for considering our views. We look forward to working 
with you to ensure final passage of a bipartisan National Park Service 
Centennial Bill.

            Sincerely,

        American Forests              National Park Hospitality 
                                      Association

        American Hiking Society       National Parks Conservation 
                                      Association

        American Recreation 
        Coalition                     National Tour Association

        Appalachian Trail 
        Conservancy                   Recreational Equipment, Inc.

        Association of Partners for 
        Public Lands                  Southeast Tourism Society

        Destination Marketing 
        Association International     Student Conservation Association

        East Bay Regional Park 
        District                      The Coalition to Protect 
                                      America's National Parks

        Friends of Acadia             The Corps Network

        Friends of the Oregon Caves 
        and Chateau                   The Wilderness Society

        Grand Canyon Association      U.S. Travel Association

        Japanese American Citizens 
        League                        United States Tour Operators 
                                      Association

        Mississippi River Fund        Western States Tourism Policy 
                                      Council

        Mount Rushmore Society        Wolf Trap Foundation for the 
                                      Performing Arts

        Nature Bridge

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
